<html>
<title> - WIRED CHINA: WHO ' S HAND IS ON THE SWITCH?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



               WIRED CHINA: WHO'S HAND IS ON THE SWITCH?
=======================================================================




                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                             APRIL 15, 2002
                               __________

 Printed for the use of the Congressional-Executive Commission on China








         Available via the World Wide Web: http://www.cecc.gov


                    U.S. GOVERNMENT PRINTING OFFICE
79-770                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



Senate                               House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             NANCY PELOSI, California
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director
                   John Foarde, Deputy Staff Director

                                  (ii)










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Ira Wolf, Staff Director, Congressional-
  Executive Commission on China..................................     1
Kaufman, Edward E., member, Broadcasting Board of Directors......     2
Hom, Sharon K., Acting Executive Director, Human Rights in China.     4
Mulvenon, James C., Deputy Director, Center for Asia-Pacific 
  Policy, RAND...................................................     8
Hauser, Kathryn, Senior Vice President, Technology and Trade, 
  Information Technology Industry Council........................    12

                                APPENDIX
                          Prepared Statements

Kaufman, Edward E................................................    34
Hom, Sharon K....................................................    35
Mulvenon, James C................................................    39
Hauser, Kathryn..................................................    40

                       Submissions for the Record

Prepared statement of Bobson Wong, Executive Director, Digital 
  Freedom Network................................................    43
Prepared statement of David Cowhig...............................    47
Center for Social Development, Chinese Academy of Social 
  Sciences, Frequency Questionnaire of the Survey on Internet 
  Usage and Impact in Beijing, Shanghai, Guangzhou, Chengdu, and 
  Changsha.......................................................    51




               WIRED CHINA: WHO'S HAND IS ON THE SWITCH?

                              ----------                              


                         MONDAY, APRIL 15, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened pursuant to notice, at 2:45 
p.m., in room SD-215, Dirksen Senate Office Building, Mr. Ira 
Wolf (Staff Director of the Commission) presiding.
    Also present: John Foarde, Deputy Staff Director; Michael 
Castellano, Office of Congressman Levin; Jennifer Goedke, 
Office of Congresswoman Kaptur;Todd Rosenblum, Office of 
Senator Bach; and Alison Pascale, Office of Senator Levin.

 OPENING STATEMENT OF IRA WOLF, STAFF DIRECTOR, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Mr. Wolf. On behalf of Senator Baucus, the Chairman of the 
Congressional-Executive Commission of China, and Congressman 
Doug Bereuter, the Co-Chairman, I'd like to welcome all of you 
to the fourth roundtable that we've held at the staff level on 
issues before the Commission. Today we will be discussing the 
Internet and free flow of information in China, critical issues 
related to the mandate of the Commission which is to monitor 
human rights and developments in the rule of law. I was going 
to go down a list of the future hearings and roundtables, but I 
just refer everyone to the Commission Web site, www.cecc.gov.
    We have four participants today. First we have Ted Kaufman 
who is a member of the Broadcasting Board of Governors, Sharon 
Hom who is from Human Rights in China, James Mulvenon from 
RAND, and Kathryn Hauser from the Information Technology 
Industries Council. We will run this as we do all the 
roundtables. We start from left to right, no ideological 
implications here, call it window to wall.
    There are 10 minutes for each opening statement. The yellow 
light in front of you goes on at minute 9, so please try to 
finish up, although we are flexible on this. Once all four of 
you have finished, the staff of the commissioners will ask you 
questions. We hope that it is not so much a question and answer 
format as we will throw out an idea and we'd like to have 
discussion among the panelists. Ted, why don't you begin.

 STATEMENT OF EDWARD E. KAUFMAN, MEMBER, BROADCASTING BOARD OF 
                           GOVERNORS

    Mr. Kaufman. Thank you and thanks for having me here.
    My name is Edward Kaufman, I am a member of the 
Broadcasting Board of Governors [BBG]. The BBG is a bipartisan 
group of eight private citizens, plus the Secretary of State, 
who oversee all U.S. Government, non-military, international 
broadcasting. This consists of Voice of America [VOA], Radio 
Free Europe, Radio Liberty, Radio Free Asia [RFA], World Net 
Television and Radio and Television Marti.
    Our budget is approximately $526 million, we have 3,432 
employees and we broadcast in 65 languages around the world. We 
were created by the United States International Broadcasting 
Act of 1994 as an independent part of the United States 
Information Agency [USIA]. We became an independent Federal 
agency in 1999 when USIA was subsumed in the State Department.
    The lack of free flow of information in China has strongly 
concerned the board since the BBG's inception. The Chinese 
policy regarding the Internet is just an extension of the 
country's policy toward any objective source of information 
about what is occurring in China or the rest of the world. All 
levels of the Chinese Government are committed to controlling 
any information that might reach the Chinese population.
    The government controls from Beijing all radio, television, 
and Internet dissemination of news throughout China. This is 
done in what has become a media rich environment. There is the 
illusion that there are many voices in China, but in reality 
there's only one.
    Wherever you travel there are many newspapers but only one 
story. Many of the media outlets no longer receive subsidies 
from the government and must compete for advertising revenue to 
ensure their financial viability. However, competition does not 
extend to the news and analysis, which is closely monitored and 
controlled by the government.
    The Chinese Government has become skilled at giving 
visiting Western policymakers and business representatives the 
impression of a free press in China. CNN and BBC television are 
available at most first-class hotels, and the International 
Herald Tribune and the Asian edition of the Wall Street Journal 
are sold in hotel lobbies. However, none of these are available 
to most Chinese.
    In an attempt to overcome China's internal censorship and 
to bring truth and objectivity to China, United States 
international broadcasting provides comprehensive news and 
objective information to the people of China every day through 
radio, television, Internet, and satellite broadcasts. These 
services are offered in Mandarin, Cantonese, and Tibetan 
languages by VOA and RFA. Radio Free Asia also has a Uyghur 
service.
    It brings information to millions of eager listeners and 
viewers. However, these channels are often systematically 
blocked either by direct jamming or broadcast interference from 
local stations or other government policies that frustrate free 
access. It was hoped that China's acceptance in the WTO [World 
Trade Organization] would result in reduction of jamming. 
However, since the start of the Chinese New Year the jamming 
has increased.
    This is especially discouraging because the United States 
has given unprecedented access to Chinese Government 
international broadcasting. China Government television [CCTV] 
has wide dissemination in the United States, including 
California's largest cable network and Washington, DC cable. It 
will soon be on Time/Warner's cable systems, including New York 
City and Houston. China's international radio, CRI, broadcasts 
into the United States without jamming, and is available on AM 
and FM radio stations across the country.
    The lack of reciprocity extends beyond broadcasting to 
news-gathering. The Chinese Government has allowed VOA only two 
reporters in China, both for the English service, and no RFA 
reporters. In addition, they have yet to approve the addition 
of two Mandarin-speaking reporters for Beijing and Shanghai. 
The Chinese Government complains about their coverage, but will 
not allow native speaking reporters to serve in China.
    At the same time, China's CCTV and CRI have numerous 
bureaus and reporters in the United States. CCTV has offices in 
New York and Washington, DC with two reporters each. CRI has 
two reporters in their Washington, DC office, two in their New 
York office, and one in their Los Angeles office.
    Because the Internet could provide a new means to transmit 
information, Beijing fears its threat to their information 
monopoly. At the same time they recognize the Internet's 
economic and educational importance. The government has 
instituted draconian regulations and conducts widespread 
electronic blocking of particular Web sites, usually 
international news sources.
    Once again, the government choreographs all this activity 
beautifully. When President George W. Bush visited Shanghai to 
attend the meeting of Pacific Rim Nations in October 2001, the 
Chinese Government stopped blocking a number of Internet news 
sites including those of ANN, the NBC, Reuters, and the 
Washington Post. These blocks were reactivated immediately 
following President Bush's departure.
    As a result of these governmental measures the Chinese 
people are woefully short of objective information on the 
United States and its people. Ironically they believe that they 
understand the United States quite well from syndicated 
sitcoms, movies and music videos. Over the long term this 
prevents the development of a healthy China-United States 
relationship. In the short term, it is a policy disaster.
    The Chinese people's responses to the May 1999 bombing of 
the Chinese Embassy in Belgrade and the April 2001 captured 
spy-plane incident are notable. The Chinese Government's 
monopoly of information media enabled it to orchestrate Chinese 
public reactions to both incidents. In May 1999, rock-throwing 
demonstrators attacked the United States Embassy. In April 2001 
Chinese domestic media presented a one-sided version of what 
happened to the United States spy plane but deliberately toned 
down its rhetoric and the demonstrations were minimal. Finding 
anyone in China who has heard the United States version of 
either case is difficult. Ultimately, in a time of crisis with 
China, the United States president has no way to communicate 
directly to the Chinese people.
    The Chinese people are in the place of an old saying, ``the 
trouble with most folks isn't so much their ignorance, as 
knowing so many things that ain't so.'' One of our recent 
surveys found that 68 percent of the urban dwellers in China 
consider the United States to be their nation's No. 1 enemy.
    The United States cannot afford to have 1.2 billion people, 
almost 18 percent of the world's population so ill-informed.
    What can we do about this?
    First, President Bush, State Department officials, and 
Members of Congress can demand reciprocity from the Chinese, 
and stop jamming international broadcasts and allow more United 
States journalists into China.
    Second, United States Government pressure can be brought on 
neighboring countries that are reluctant to allow VOA and RFA 
to broadcast into China from their countries because of Chinese 
Government pressure.
    More money can be allocated to the infrastructure required 
to get our signal through. The United States needs refurbished 
short-wave facilities, access to additional satellites, and 
leasing of additional medium-wave facilities.
    As today's hearing shows, the Internet can be key. Regular 
use is now at 5.8 percent in China and growing rapidly. Among 
better-educated 21 percent use the Internet regularly. The 
Internet is the perfect medium for the United States to 
communicate directly with individual Chinese citizens. And the 
United States has to be single-minded in putting pressure on 
the Chinese to stop blocking our Internet sites. In the 
meantime, we should spare no expense in finding ways to 
penetrate the blocking.
    The debate on the bill that established the Congressional-
Executive Commission on China is full of rhetoric that free 
trade and economic parity for China would lead to the free flow 
of ideas. If anything, since the passage of that bill, the 
Chinese Government has done even more to slow or stop the free 
flow of information in China.
    It is essential for healthy Chinese-United States relations 
that all levels of the United States Government demand that 
China end the censorship and the jamming and blocking and 
deliver on the promise of free flow of information. Thank you.
    [The prepared statement of Mr. Kaufman appears in the 
appendix.]
    Mr. Wolf. Thank you very much. Next is Sharon Hom.

 STATEMENT OF SHARON K. HOM, ACTING EXECUTIVE DIRECTOR, HUMAN 
                        RIGHTS IN CHINA

    Ms. Hom. Thank you, Ira. I want to start by thanking Ira 
Wolf and John Foarde for inviting Human Rights in China [HRIC] 
to participate in this roundtable.
    The inclusion of an international human rights and Chinese 
NGO [non-governmental organization] perspective, together with 
business, government, and national security perspectives, will 
hopefully contribute to a productive and lively exchange and 
sharing of views.
    Founded after the June 4 crackdown, HRIC is an 
international, non-governmental organization dedicated to 
promoting a growing rights consciousness among the Chinese 
people; supporting the development of civil society; empowering 
peaceful grassroots activism; advocating effective 
implementation of China's domestic laws and practices in 
compliance with international human rights obligations; and 
acting as a catalyst for democratic social change.
    The rapid development of the Internet in China presents 
significant opportunities and challenges for advancing these 
human rights goals. We also recognize there are multiple 
stakeholder interests, including the Chinese Communist Party 
[CCP], competing PRC [People's Republic of China] ministries 
and various organs all claiming a piece of what they view as 
lucrative regulatory territory, domestic Chinese telecoms, 
foreign investors, media and foreign telecom companies and 
domestic and international NGO's.
    Yet there is probably a point of convergence at this 
roundtable on the importance of promoting freedom of expression 
and the free flow of information. From the United States 
Government's perspective, these are integral to the development 
of rule of law, democracy, and promotion of civil society 
initiatives. From the perspective of the private telecom 
sector, the uncensored flow of free information is at the 
normative core of free market and exchange values.
    From our perspective, the free flows of information, 
uncensored debate and discussion, and freedom of assembly, are 
critical for promoting the accountability of government, 
exposing and addressing corruption, and promoting the emergence 
of a genuine democratic civil society. However, because 
political and legal controls constrain the independence of 
civil society within China, the nurturing of an uncensored 
virtual civil society through the use of Internet and wireless 
technology becomes an essential challenge.
    In the past 7 years, the astonishing development of the 
Internet can be seen in the laying of the backbone of thousands 
of kilometers of fiber optics--longer than the Great Wall--the 
exponential growth in bandwidth, and now more than 33 million 
Internet users. The number of people online in China has been 
rising rapidly in the past 3 years, surging to rates of 152 
percent growth.
    In terms of wireless technology, currently China has the 
largest wireless market in the world, nearly 200 million users.
    Yet, these numbers also reflect a serious digital divide. 
The demographics of these users raise concerns about breathless 
accounts of the capacity for the Internet to allow China to 
leapfrog other countries. Internet users and their geographic 
distribution are not representative of China as a whole. The 
vast majority of Internet users are young, male and college 
educated. However, I just want to note, the arrest of Internet 
activists seems to be geographically distributed throughout 
China in all the provinces. The Internet, however is mainly 
diffused over the three big cities, Beijing, Shanghai and 
Guangzhou. By the end of 2000, only 0.76 percent of the 
Internet users are in rural areas where 80 percent of China's 
population resides.
    This digital divide reflects and contributes to the 
widening economic and social gap between rural and urban, and 
underscores the failure of China's economic modernization 
policy to ensure equal access and treatment in political, 
economic, social and cultural life to the vast majority. 
Together with rising social dislocations and growing violent 
unrest among the millions of unemployed workers, these growing 
inequalities threaten to undermine the security, stability and 
fairness of China's modernization and reform efforts.
    If the promise of the Internet reaches only the current 
demographics and growing middle class elite--then the Internet 
will not be a real tool for democracy or building civil society 
in China. Inherent in visions of democracy and freedom are 
broad-based non-discriminatory access and opportunities for 
participation. Whether in cyberspace or otherwise, freedom of 
expression, an independent press, and freedom of assembly are 
meaningless if they can only be exercised by those connected, 
rich, educated, or powerful enough to claim these rights.
    It is also important to note that during this period of 
impressive technological advances, the overall human rights 
situation in China remained--and remains--serious and urgent. 
Ongoing human rights abuses include the systematic and 
continued use of torture, the arbitrary administrative 
detention system, and the ongoing impunity for the violent June 
4, 1989 crackdown on unarmed civilians.
    The post-September 11 global and domestic focus on anti-
terrorism has also allowed China, in the name of security, to 
continue its violent crackdown on peaceful Muslim and Tibetan 
advocates for self-determination, political dissidents, labor 
and democracy activists, and on vulnerable groups, such as 
rural and migrant populations. At the end of 2001, China 
imprisoned more journalists than any other country in the 
world.
    And specifically relevant to our discussion today, China 
has adopted a range of low- and high-tech strategies, including 
implementation of extensive regulations to censor and control 
Internet content and access, a network of informers, and the 
construction of an extensive and sophisticated surveillance 
system, with the assistance of the foreign telecommunications 
corporations, notably Canadian and including major United 
States companies. These strategies have also resulted in self-
censorship on the part of commercial Internet service providers 
and others.
    Despite mounting government sophistication at proactive 
propaganda strategies to use the Internet to promote State 
interests, the Internet is also a vehicle for human rights 
activism by mainland and exile groups such as HRIC, the China 
Democracy Party, the Falun Gong, and the Tibetan exile 
community. However, individuals within China that seek to 
deploy Internet strategies are met with arrests and detention. 
There are at least 20 or more individuals who have been 
detained in the past year, that's 2001, for alleged illegal on-
line activity, that include printing out pro-democracy 
materials, distributing information on Falun Gong, publishing 
articles of arrests of Internet activists, promoting political 
reforms and calling for the reassessment of June 4, and posting 
information about local human rights violations. These were all 
deemed to be violating State security.
    Increasingly restrictive Internet regulations make it clear 
that freedom of expression, freedom of assembly, and right to 
petition the government guaranteed in the Chinese Constitution 
are not real freedoms at all when the regime views their 
exercise as a challenge to its monopoly on political power.
    The legal, technological, and policy responses of the PRC 
Government to control and counter the potential political 
impact of the Internet also raise important questions regarding 
conventional wisdom that the Internet will act as an inevitable 
force for democracy. When Jiang Zemin and current leaders call 
for the informatization of the economy, the military, and the 
government bureaucracy , it is clear this does not include any 
perceived challenges to the monopoly of political and 
information power held by the Party.
    As an example from the NGO trenches, perhaps an example of 
what the RAND current report refers to using the Internet as a 
force multiplier, I want to end by briefly describing HRIC's 
Internet-related initiatives. Our work features a proactive 
role for mobilizing technology for human rights activism from 
the base of our interactive Web site. At the end of last year, 
HRIC re-launched an expanded database driven bilingual Web site 
that provides easy-to-search functions, direct links to HRIC-
sponsored projects such as the June 4 Fill the Square, on-line 
issues of HRIC's journal China Rights Forum, daily human rights 
news updates, and an archive of HRIC reports prepared for U.N. 
bodies and international conferences, and the design of a 
comprehensive data base on political prisoners in China. HRIC 
also is currently working with a former student leader of the 
1989 Movement and now a professional Internet data base 
developer to construct a comprehensive, interactive, and 
authoritative Web site focused on establishing reliable 
accounts and facts of the June 4 massacre and the subsequent 
persecutions. This Web site will include the diverse 
perspective of students, concerned citizens and the government 
and archival materials such as dazibao--the ``Big Character 
Posters''--pamphlets, meeting records and decisions, photos, 
audio and videotapes, government announcements and internal 
documents--wenjian--reports, and interviews on newspapers, and 
TV and radio coverage.
    Together, this Web site and the archive will make 
historical materials about this pivotal event in contemporary 
China available to human rights activists, researchers, 
educators, journalists and the evolving pro-democracy movement.
    Looking ahead, we recommend the following areas for ongoing 
attention by the Commission.
    First, identifying and monitoring possible opportunities 
for intervention and engagement by the United States 
Government, the private sector, and NGO's.
    For example: In October 2002, Shanghai will host the ICANN 
conference. The complexities and internal debates aside, how 
can concerns about Chinese Internet censorship, free flow of 
information, and freedom of association and assembly, be 
constructively and appropriately raised?
    In the lead-up to the 2008 Olympics, we urge the Commission 
to monitor several human rights concerns, including violations 
of labor rights, the cleaning-up of areas of Beijing through 
detention of undesirables, tighter control of the media to 
maintain a positive domestic picture, shut-downs of media and 
Web sites, and the continued use of security and anti-terrorism 
measures to silence legitimate peaceful expression.
    With respect to information and surveillance technology, 
the testing and implementation of security systems during site 
construction, including digital surveillance cameras, biometric 
authentication systems, should be carefully monitored to avoid 
leaving behind the architecture for technological repression 
and control when the games are finished.
    We also end by respectfully noting that the roundtable 
themes are interrelated and it may be useful for the Commission 
to consider at some future point, hearings or roundtables that 
examine the interface between them, for example, the 
implementation of the WTO and human rights, or in the context 
of the digital divide, Ethnic Minorities and the Internet. 
Thank you.
    [The prepared statement of Ms. Hom appears in the 
appendix.]
    Mr. Wolf. Thanks very much. James Mulvenon.

  STATEMENT OF JAMES C. MULVENON, DEPUTY DIRECTOR, CENTER FOR 
                   ASIA-PACIFIC POLICY, RAND

    Mr. Mulvenon. Good afternoon. Again I'd like to thank Ira 
Wolf and John Foarde for inviting me to come today. My name is 
James Mulvenon. I'm a China researcher at the RAND Corporation 
which is a non-profit, federally funded research and 
development center, that primarily does most of its work for 
the United States Government, half of which is on national 
security matters. In other words I'm the representative of the 
defense industrial complex on this panel.
    RAND in particular has spent the last 5 years or so doing 
Chinese open source research on a variety of topics between the 
nexus of the information revolution in China and United States 
national security.
    We've looked at a number of different issues. Export 
controls--which is now becoming an increasingly vibrant debate 
here in Washington, particularly on information technologies--
China's national information security strategy; the nexus 
between the Chinese military and Chinese I.T. development, 
particularly as it effects China's military modernization; the 
use and monitoring of the Internet by the Chinese Ministry of 
public security and State security. And last what I'd like to 
talk about today which is dissident use of the Internet and 
Beijing's counter strategies. In the back of the room we have a 
copy of RAND's report by that title, and my co-author, Michael 
Chase, is with me here today.
    It is clear that all around the world from Saudi Arabia to 
Cuba to Myanmar to the People's Republic of China, dissidents 
are using the Internet increasingly to organize and communicate 
with each other, to access banned information, and draw support 
from a global network of activists and other NGO's. At the same 
time, however, these governments are struggling to prevent 
these activists from using the Internet to erode government 
controls over the flow of information and promote political or 
social agendas that these regimes find threatening. This has 
raised an interesting question, the answer of which depends on 
whether you favor the optimistic or pessimistic scenario. The 
optimistic scenario is that the Internet is a liberalizing 
force that will bring greater freedom and openness to these 
societies and therefore give greater opportunities to its 
citizens.
    But there is a pessimistic scenario that we cannot 
overlook, which is that these telecommunication and 
modernization programs favor those organizations within 
countries that have economies of scale. Having economies of 
scale these states can use this technological modernization to 
further the ends of State coercion and repression. And I think 
we see that balance in China in particular and I'd like to talk 
about some of the dynamics of that.
    Clearly the arrival of the Internet in China has altered 
the dynamic between the Beijing regime and the dissident 
community both within China and outside. For the State, 
political use of the Internet further degrades the Chinese 
Communist Party's ability to control the flow of information 
that it deems politically sensitive or subversive into China or 
within China. The Party however, also has the additional 
benefit of being able to use Leninist methods to crush 
potential organized opposition, and as a result, no 
organization with the capacity to challenge the Chinese 
Communist Party's monopoly on political power in our view, 
presently exists in China.
    But, however I would point out that the Internet only 
provides two-thirds of what I would regard as the necessary 
criteria for political change in China. Those criteria are the 
ability to coordinate activity, the ability to motivate 
activity, and then the ability to actually achieve agency with 
that activity, to actually achieve coercion. If you think about 
it, the Internet allows activists all over the world to 
communicate with one another and to coordinate with one another 
and to provide motivation for one another. But when the 
Ministry of Public Security kicks in the door of your apartment 
at 4 o'clock in the morning, that activist is alone. And to 
that extent there is a limit on the power of the Internet to 
provide a mechanism for political change short of actual 
organization and mass activity.
    I would point out that there are two different dynamics in 
terms of dissident use of the Internet that we discuss in the 
report. Two-way communication on the one hand and one way 
communication on the other. And they have very different 
results and motivations. For dissident students and members of 
groups like Falun Gong, the Internet, especially two-way 
communication like e-mail and bulletin boards in particular, 
permit the global dissemination of information for 
communication, coordination and organization with an ease and 
rapidity that is unmatched in the history of the world. And it 
also allows them to do this without attracting the attention of 
the authorities. The perfect example of that is the 10 to 15 
thousand Falun Gong practitioners that showed up uninvited 
outside the central leadership compound in Beijing in April 
1999.
    However, the dissident community has also made extensive 
use of what we deem one-way Internet communication, 
particularly what's known as e-mail spamming, which has been a 
particularly successful form of this type of communication. It 
enables groups to transmit uncensored information to an 
unprecedented number of people within China and to provide 
those recipients with plausible deniability. And how they do 
this is that they don't solicit information via e-mail--you 
don't have to sign up to be a subscriber to this. They simply 
buy mass e-mail lists with millions of names on it and they 
make sure to send those e-mails also to low-level and mid-level 
Ministry of Public Security officials. So anyone who receives 
these e-mails honestly can say that they didn't solicit them 
and therefore they have plausible deniability about receiving 
the information. In its simplicity, it is actually quite 
brilliant. The PRC is unable to stop these attempts because in 
many cases these groups never use the same originating 
organization or unit IP address more than once. And there is a 
trend, I think, toward more groups and individuals becoming 
involved in activities of this type, which some people have 
dubbed a form of Internet guerrilla warfare.
    Unfortunately the Chinese Government also has recognized 
this in their own internal writings and it is one of the 
reasons that they're so scared about it because the activity 
very much resembles the way they organized themselves in the 
1930s, into cells where individuals not necessarily have 
organizational linkages to other members of the organization. 
And thus we argue that small groups of activists can therefore 
use the Internet--as Sharon has pointed out--as a force 
multiplier to exercise influence disproportionate to their size 
and financial resources. However, we would also point out that 
enhanced communication does not always further the dissident 
cause. We've spent hundreds of hours in dissident chat rooms 
and bulletin boards and other forums both inside the United 
States and around the world, and what's clear is that a 
significant percentage of the communication on these bulletin 
boards shows us that the Internet is also a new forum for 
discord and rivalry within the dissident community; and that a 
significant percentage of these communications are accusations 
and counter accusations that one or other participant, at any 
given time in the forum, is an agent of the Ministry of State 
Security. So there's an awful lot of counterproductive, 
destructive, destabilizing discussion that's going on amid 
admittedly positive discussion.
    In terms of counter strategies, the Beijing regime, I would 
argue, has used a combination of what we call high- and low-
tech methods. On the high-tech side, this includes blocking of 
Web sites and e-mails, monitoring, filtering, denial, 
deception, disinformation, and even in some cases--we document 
in the report--official hacking of dissident and Falun Gong Web 
sites. In the past couple of years you could use proxy servers 
if you were located in China with some ease to get to nearly 
every site you could possibly want to visit on the global 
Internet. But we would note that there have been some technical 
trends in the last year or so that show that the Beijing 
Government has become increasingly sophisticated at ending the 
use of proxy servers. In addition, there are a number of other 
proposals on the table for various flawed ideas for using 
various types of peer-to-peer networking to be able to enhance 
the flow of information, and we can talk about that more in the 
discussion.
    The other half of Beijing's strategies which we dub low-
tech Leninist--and I would argue make up the bulk of their 
strategy and also account for the majority of the success of 
their strategy--are the traditional things that we associate 
with Leninism which was described once as an organizational 
weapon. In other words, surveillance, informants, searches, 
confiscation of computer equipment, regulations and even 
physical shut down of large sections of telecommunications 
infrastructure during crisis.
    In this case we've often found in going back through 
examples of arrests, that the Beijing authorities would cue on 
a particular dissident through non-Internet means, through 
informants or other methods, then cue on their communications. 
But in many cases they would simply kick in the door at 4 
o'clock in the morning and these articles related again and 
again that the first thing they do is they grab the hard drive. 
And often they reconstruct a case against a person in terms of 
what they've done on the Internet, through this type of 
physical confiscation rather than anything sophisticated or 
technology-related. What's key, though, about this strategy on 
the part of Beijing is that they understand that the center of 
gravity is not necessarily the information itself. Like all of 
us, people in China are absolutely drowning in information in 
the 21st century. But they realize that the key center of 
gravity is the organization of information and the use of 
information for political action and that's where the focus of 
their coercion has been thus far.
    The strategy of the security apparatus, I would argue, 
strives less to actually stamp out every case of the use of the 
Internet for subversion but instead to create a regulatory and 
political climate of self-censorship and self-deterrence. A 
perfect example of this are the regulations about the running 
of Internet Service Providers [ISP]--who are responsible for 
the actions of all of their subscribers--which is why the ISP's 
are the ones who put the monitors within the chat rooms to make 
sure that people aren't criticizing the Party, rather than the 
Ministry having to do it all by itself. One Ministry of Public 
Security official was quoted as saying that, people are used to 
being wary in the general sense that knowing that you are under 
surveillance acts as a disincentive. The key to controlling the 
Net in China is managing people and this is a process that 
begins the moment you purchase a modem, and one at which the 
Ministry is very comfortable. And thus in a sense they are in a 
partnership with Western and other companies in China in that 
they are looking to make an environment in which people seek 
profits, not politics.
    Now, to conclude, I would argue that to this point, 
Beijing's countermeasures--to the Internet--have been 
relatively successful. Far more successful than most of the 
Internet champions would have said 5 or 10 years ago about how 
the Internet was going to single-handedly overturn the regime 
in Beijing. In fact I would offer a surfing metaphor, to close, 
as the reason why. Which is to say that everyone on the beach 
is fascinated that the amateur, who's never surfed before 
actually got up on this monstrous wave. Which reflects the 
feeling of many people, I think, of their surprise that the 
Beijing Government has been successful thus far in being able 
to shape the information environment in China. But the hope for 
the future is that everyone on the beach also remains supremely 
confident that that amateur surfer is going to be crushed 
mercilessly against the coral reef over the long term. And thus 
is our hope for liberalization within China. Thank you very 
much.
    [The prepared statement of Mr. Mulvenon appears in the 
appendix.]
    Mr. Wolf. Thanks very much. Kathryn Hauser.

STATEMENT OF KATHRYN HAUSER, SENIOR VICE PRESIDENT, TECHNOLOGY 
       AND TRADE, INFORMATION TECHNOLOGY INDUSTRY COUNCIL

    Ms. Hauser. Good afternoon, I'm Kathryn Hauser. I'm the 
Senior Vice President of the Information Technology Industry 
Council, otherwise known as ITI. Thank you for inviting me to 
speak today on behalf of the 30 member companies of my 
association. ITI members are the leading providers of 
information technology products and services and span the 
entire I.T. industry, from infrastructure to computer hardware, 
software, services, consumer electronics, e-commerce and 
Internet services.
    Our companies operate globally and are heavily invested in 
ensuring open international trade, as over 60 percent of their 
revenues come from foreign sales. China is obviously a key 
market for ITI members. Many of our companies have longstanding 
investments and operations there and others are relatively new 
to the market. But all agree that China represents the most 
significant growth market for I.T. products and services and we 
at ITI are actively working to improve our companies' access to 
this market.
    We are hopeful that China's membership in the World Trade 
Organization will advance domestic economic reforms and expand 
China's openness to the rest of the world.
    The focus of this roundtable on ``Wired China, Who's Hand 
is on the Switch,'' is timely. We've all observed as have other 
panelists, the rapid expansion of the Internet in China as well 
as the steady increase in Chinese domains and Web sites. The 
China Internet Network Information Center estimates that there 
are 33.7 million Chinese Internet users and many are predicting 
that China will soon overtake Japan as the Asian country with 
the most Internet users. Already, China is the world's largest 
market for cell phones with nearly 160 million users. As the 
technology evolves to allow inexpensive Internet access from 
cell phones, China is likely to have more Internet users than 
any other country.
    All of us are questioning what this means for China, its 
people, governments, businesses and consumers and for our 
countries doing business there. As with any issue in China, the 
role of the government is paramount. Through telecommunications 
policies beginning in the 1990s, the Chinese Government shaped 
the growth and diffusion of the Internet and continues to 
support its expansion today. At the same time the Chinese 
Government is attempting to control use of the Internet by 
filtering or blocking access to certain Web sites with 
objectionable content.
    We in industry believe in the power of information 
technology to generate higher productivity and economic growth, 
to increase the flow of information, and to better the lives of 
those that can access it. I want to speak for a moment about 
the Chinese Government's support for the development of the 
Internet.
    Internet expansion in China is due, we believe, to direct 
support by the Chinese Government and it continues to support 
and promote the use of information technology and the Internet 
to serve its economic goals. Nearly a decade ago in the early 
1990s, the Chinese Government began a process called 
informatization, which was to drive industrial development. It 
initiated the so-called ``golden projects'' which established a 
new Internet protocol communications network linking government 
ministries and state-owned enterprises. The goal was to use 
information technology as a vehicle to modernize the economy, 
centralize decisionmaking, create a more transparent 
administrative process between and among government ministries, 
and establish e-government capabilities. The Chinese Government 
also deployed broadband technologies, particularly in high-
density urban areas, and put a plan in place to rapidly build 
out the country's telecom infrastructure. These actions paved 
the way for State Council support for the development of the 
Internet in China.
    In 1996, the State Council set up a Steering Committee on 
National Information Infrastructure to coordinate Internet 
policy, taking it out of the hands of the Ministry of Posts and 
Telecommunications and the Ministry of Electronic Industries. A 
further restructuring occurred 2 years later in 1998, with the 
consolidation of functions into the Ministry of Information 
Industries, known as MII. High-tech and telecom issues became 
the responsibility of Vice Minister Wu and the MII Minister, 
with Premier Zhu Rongji, occasionally taking a role.
    Last August, the State Informatization Leading Group was 
formed to provide top-level coordination of intra-agency issues 
related to the I.T. and telecom sector. Under this leading 
group, the State Council Informatization Office launched a 
major initiative to broaden decisionmaking and communication 
links through e-government.
    Chinese Government officials are eager to learn about the 
United States experience with e-government. We at ITI have 
forged a link between the State Council Informatization Office 
and USITO, the United States Information Technology 
Organization, which is comprised of six United States I.T. 
associations and serves as our collective voice in China. Vice 
Minister He of the State Council Informatization Office was in 
Washington last month and discussed e-government and e-commerce 
issues with ITI member companies. We will continue this dialog 
through USITO in Beijing.
    The United States should welcome China's e-government 
initiative. It has the potential to significantly increase 
transparency of China's governance for its own people. Some of 
our members believe it will also be the major driver of the 
growth of the use of the Internet in China, as government 
information, decisions, and services remain important if not 
paramount in China. Finally, U.S. companies, including ITI's 
membership, are best positioned globally to benefit from this 
growth.
    We have already heard from other speakers about how, as the 
Internet continues to expand in China, the government continues 
its attempt to tighten controls on on-line expression. What 
kind of content is the Chinese Government really trying to 
limit? Much of their attention seems focused on the same issues 
that have troubled regulators in other countries--exploitative, 
sexually inappropriate, or criminal uses of the Web. Beyond 
that, Chinese officials want to limit politically offensive or 
regime-threatening subjects.
    Since 1995, when China first began permitting commercial 
Internet accounts, the authorities have issued at least 60 sets 
of regulations aimed at controlling Internet content. The 
regulations are often vague and broadly worded, but nonetheless 
form an elaborate regulatory framework that serves as a 
statement of policy, justification for monitoring or 
surveillance, and a set of guidelines for what constitutes 
illegal activity and a deterrent to Internet users.
    When industry has pressed Chinese officials for details, 
regulators have a hard time or simply refuse to describe 
precisely what sort of subjects fall into these categories. The 
very vagueness of Chinese regulations concerning political or 
religious issues has a chilling effect on all dialog relating 
to these topics.
    We have already heard from other speakers about the recent 
survey conducted in China about Internet use. I would like to 
refer the staff to that Web site which is 
www.worldInternetproject.org. It talks about the use of the 
Internet in China and the ways in which users of the Internet 
are trying to get around the blocking activities of the Chinese 
Government.
    I think, to conclude, there is a strong role for the United 
States industry in this debate. First, we must continue to work 
closely with the Chinese Government to help China expand 
Internet access broadly throughout the country and to help them 
benefit from the use of information technologies. Our USITO 
Office in Beijing is well-positioned to advance this dialog and 
ITI member companies will actively participate and share their 
experience with e-commerce and e-government.
    A key objective will be to develop a process whereby 
companies that will be affected by proposed regulations will be 
permitted to comment on them before they are implemented. In 
addition, we hope to share information about how other 
governments are dealing with these problems, encourage Chinese 
participation in e-commerce occurring around the world, and 
support government-to-government exchanges on these issues.
    We anticipate that this discourse will enable both industry 
and government to work together to address the regulatory 
structure and other key issues such as privacy and security.
    Whether one considers the Internet primarily a method of 
mass communication or a product of the telecommunications 
network, the fact remains that the Chinese leadership continues 
to see the development and promotion of the Internet as a 
vehicle for cultural, educational, and economic development in 
China. This does not mean that the government will not try to 
control objectionable content, just as many other countries are 
doing. But it is clear that China is making more information 
available to more and more people. the United States I.T. 
industry needs to be part of this effort. Thank you.
    [The prepared statement of Ms. Hauser appears in the 
appendix.]
    Mr. Wolf. Thanks, Kathryn, and thanks to all of you for 
getting us off to a really good start this afternoon. I'll 
start out if I may. I'd like to talk a little about reciprocity 
with a question to you, Ted, about what kind of discussions 
there have been in recent years between the United States 
Government and the Chinese Government on the issue of 
reciprocity that you've raised. At least between the radios, 
the government radios or TV, or in this case cable usage. And 
then I'd like to get any comments from any others on how we 
could use the concept of reciprocity more broadly in terms of 
trying to help open up the Internet inside China.
    Mr. Kaufman. Well, we've been talking about it with the 
Chinese Government both directly and also through our Embassy 
for a long time. We've been talking about jamming specifically 
and now blocking the Internet for a long time and we've 
documented with the ITU the fact that China's doing it. Many 
times the discussion won't go very far because they allege they 
are not jamming. So it really hasn't been a discussion. It has 
been one-sided complaining on our part and not much discussion 
on theirs, because when it comes to reciprocity they know, and 
none of us ever would suggest, that we would curtail their 
ability to broadcast in the United States. That's not what 
we're about, and they know that that's not something that we'd 
be willing to do. So the discussions are pretty one-sided.
    We did make a formal request to the Chinese Government that 
they expand the number of reporters we have in China. This has 
been turned down. Right now we have in our English service, two 
reporters in Beijing. We wanted to open up a Shanghai office 
and have a Beijing office with two reporters that were Mandarin 
speakers. The irony is that when you talk to them, one of their 
complaints is that there isn't enough coverage of what goes on 
in China, but at the same time they don't want to have more 
reporters who are Mandarin speakers in the country. So it has 
really been more of a one-sided discussion. I think this 
Commission can play a major role in changing that. The Chinese 
Government is embarrassed about the unfairness of it. In fact, 
when I first started talking to the government they would say 
things like ``How would you feel if we were broadcasting in 
your country?'' Well now they're broadcasting in our country 
big time. The response I always give is ``how would you feel if 
you invite someone to your house but they would not invite you 
to their house?'' Without some indication that this is on the 
agenda of the U.S. Government through the Congress or through 
the Executive Branch, this is not going to go anywhere. 
Recently we have talked to the Embassy and the Embassy is in 
the process of once more going back to them and talking about 
the whole area of reciprocity. I think it is a good issue to 
talk about with the Chinese. But I think it has to be done by 
people other than us.
    Mr. Wolf. This has not been very high up on the agenda of 
the executive branch?
    Mr. Kaufman. Yes, I think there's been a concern, but 
you've been doing this for a while now, you know that there's 
so many issues with China. When do you get to broadcasting? 
When do you get to free flow of information? That's why the 
passing of PNTR [permanent normal trade relations] was a 
wonderful opportunity. Clearly PNTR was based on Kathryn's 
comment which is if we have the free exchange economically, we 
will have free exchange of ideas. And I went to China after 
passage of PNTR thinking that we're going to do this, we're 
really going to start talking about this. However, it has been 
very discouraging. I talked to some folks at Voice of America 
last week and they said, in fact, the jamming since the Chinese 
New Year has increased, and Radio Free Asia says the same 
thing. The Chinese Government seems to feel that now that 
they've gotten PNTR, and they're in WTO that they can stop any 
progress on free flow of information. The final thing I'll say 
is it goes back to what happened when President Bush went there 
in 2001. They removed all the Internet blocks while he was 
there and replaced them as soon as he was gone. It is a public 
relations thing. There's got to be some meat behind our 
efforts. There has to be some real concern in the Congress and 
the Executive Branch for anything to happen.
    Mr. Wolf. Any other thoughts on the use of reciprocity?
    Ms. Hom. Not on reciprocity--but I would like to comment on 
Ted's PNTR comments. I think one obstacle that comes right up 
is that trade liberalization, the WTO, and China's being 
willingness to be part of the international economic regime, 
does not necessarily translate into willingness to pursue 
political reforms because China has very clearly bifurcated 
economic and political reforms. So I think that's the policy 
wall you hit. But in the context of WTO, WTO membership 
reflects signing onto general principles and an objective, 
independent dispute settlement mechanism that is not a national 
mechanism, but an international one. These principles arguably 
support movement toward a rule-based system.
    Mr. Wolf. Thanks. Let me next go to John Foarde.
    Mr. Foarde. First of all, thank you all for fascinating and 
profound statements that will really help us grapple with these 
issues and I've got a zillion questions but we have colleagues 
here that will also want to ask. So let me address one to Jim. 
In an exchange on an Internet discussion group last Fall 
someone suggested to me that for a Chinese Internet user to 
bypass blocked sites was ``technically trivial''. But your 
comments suggest that maybe not so much now as in the past and 
the Chinese Government may be increasing its sophistication to 
prevent the use of proxy servers. Could you comment on that and 
also on the use of peer-to-peer methods to bypass blocks?
    Mr. Mulvenon. I would say 2 years ago it was quite trivial 
to go around the blocks. In many cases you would go into an 
Internet cafe in China and the Netscape or Explorer browser 
would be pre-configured with the proxy server to go around it. 
And the top three bookmarks were lists of proxy servers that 
you could use to go around and all you had to do was figure out 
how to program the proxy.
    The Chinese Government is pretty slow on the uptake on many 
of these things but they finish well. In the sense that they've 
pursued a variety of technical means over the last year, which 
have allowed them to track proxy server use and much more 
quickly add those proxy servers to the routing lists to ban 
them on the routing tables. In a way it becomes a communication 
problem because the problem with any sort of peer-to-peer or 
proxy blocking scheme, is you have to be able to communicate to 
large numbers of people in a very short amount of time, how to 
get around it or what proxy server to use. Unfortunately, the 
government is on the same communication channel. And thus you 
have what in my mind are fundamentally, systematic system 
flaws, like the idea of Triangle Boy. Where, if you are in 
China currently, you have to send an e-mail to the Triangle Boy 
people to get the current list of where the Triangle Boy 
servers are. Well there's nothing that has stopped the Ministry 
of Public Security, from simply sending the same e-mail to 
Safeweb to get the list and to add those proxy servers or those 
Triangle Boy servers to the blocked routing tables.
    So communicating to people within China, in a secure way, 
about how to get around this stuff without also communicating 
the keys to that, to the Chinese Government is a fundamental 
design problem. And I haven't seen anything yet in a technical 
realm that solves it.
    Mr. Wolf. Thanks. Jennifer Goedke with Congresswoman 
Kaptur.
    Ms. Goedke. I'd also like to thank each of you for 
testifying today. My first question would be--when we were 
considering passing PNTR, we had companies begging us to 
support this legislation because they thought, great, now we 
can get into China and everything is going to change. Now that 
PNTR has passed and more foreign-owned businesses are able to 
get into China, how can they support some of the reform for the 
Internet; whether it is through human rights or whether its 
access, is there anything that some of these companies can do?
    Mr. Kaufman. There isn't much interest in doing that. In 
fact, some of the people that are providing the very technology 
that we're talking about here, to allow the Chinese to block 
the Internet, are these companies that got in because of PNTR. 
It seems that what we have is the worst of all worlds, and that 
is, we've got American corporations in there helping them block 
the Internet sites and then talking about legitimate objections 
that the Chinese Government has to politically sensitive 
material. So I see very little being done by American 
corporations to do anything but exacerbate the problem.
    Ms. Hom. I would basically agree with that assessment--but 
at risk of sounding somewhat naive--I would like to point out 
one recent development--a U.N. initiative--The Global Compact, 
although the NGO community views it quite skeptically at this 
stage. China hosted a Global Compact meeting in December 2001 
attended by large telecom and other companies, including Cisco, 
Microsoft, and Nokia. As of January 2002, at least 25 foreign 
companies with a substantial business or investment presence in 
China have formally indicated their participation in the Global 
Compact. Basically, the Global Compact is premised on a 
``learning model,'' to involve various actors--governments, 
companies, labor, civil society, and the U.N.--to promote good 
practices by corporations in three areas: Human rights, labor 
rights, and the environment. The standards for developing and 
promoting advocacy approaches are measures by internationally 
recognized documents and standards set forth in human rights, 
ILO, and the RIO documents.
    So one way that these companies--I think that market power 
is on the side of security--market power is just on the side of 
this $80 billion dollar industry. But privacy and the 
protection of human rights is not going to generate a lot of 
profits. But it will ultimately affect the bottom line by 
affecting the stability of the investment climate.
    But on the business side, market power is on the side of 
security concerns that are generating an industry of billions 
of dollars. Privacy concerns and the protection of human rights 
are not going to generate a profit that outweighs these market 
incentives. However, the human rights situation will ultimately 
affect the bottom line by affecting the stability and viability 
of the investment climate. So human rights should be of concern 
to the private sector. I think some of the key companies 
joining the Global Compact understand this.
    I think one area for the Commission members to pay 
attention to would be the monitoring of the implementation of 
the Global Compact. The Global Compact Web site is: 
www.globalcompact.org. It would be good to pay attention to the 
overlap of companies that are Global Compact participants, 
Olympics 2008 sponsors, and I.T. companies represented on the 
Industry Council. I don't think any of the Olympics corporate 
sponsors would want their names associated with human rights 
violations and keeping somewhat of a clean public face would be 
important to these companies. The Commission can also help to 
ensure that NGO civil actors are at the table. For example, at 
the Beijing meeting held in December 2001, no independent NGOs 
were invited.
    Ms. Hauser. I would just add to that by saying: One of the 
challenges of doing business in China is the need to constantly 
meet with Chinese Government officials. And what many of our 
member companies are finding out is they have to broaden and 
deepen the range of government officials with whom they talk. 
So that we're no longer talking just to the Ministry of Foreign 
Affairs but we're getting into very deep discussions within MII 
or other Ministries depending on the issue. And I mention that 
because the Chinese Government really wants to implement the 
WTO, at least that's what they say. But to get them to 
understand why we need transparency, why global companies need 
to be at the table participating in the formulation of 
regulations, is critical. It is not going to be acceptable for 
the Chinese to hand pick those companies that they want to get 
input from and then dismiss everyone else and say that they 
have consulted. That's one of the key points that I wanted to 
stress in my remarks and I think it is going to be very slow 
going, but it is the incremental process of speaking to the 
Chinese Government at all levels where we're really going to 
begin to see some change.
    Mr. Wolf. Do you want to add something, James?
    Mr. Mulvenon. Obviously, the Chinese regulatory environment 
is very hostile in the sense that they are constantly moving 
the goal posts to allow experiments to go forward just to 
identify the negative outcomes and then revise the regulations.
    The one thing United States companies can do to help the 
situation over the long term is to export more and more 
advanced technology not to Chinese producers. But let me just 
give you one example. We are talking about drowning people in 
volume, much as we are drowned every day with our cell phones, 
PDA's, e-mail, Internet, everything else. A Sysco gigabit 
router of which there are hundreds in China transmits a gigabit 
of information every second. The possibility that the Chinese 
Ministry of Public Security can filter that rate of data 
transfer becomes increasingly improbable. No matter what the 
level of sophistication of their filtering technologies. So in 
a sense, the more United States companies and other Western 
companies get in China and modernize that infrastructure, the 
more increasingly difficult it becomes for a relatively 
atavistic bureaucracy to really keep up. And if you look at 
Moore's Law and other technological curves, it becomes 
increasingly difficult.
    Mr. Wolf. Thanks. I must say the Chairman, Senator Baucus, 
throughout the PNTR debate and going back probably to the 
beginning of the annual MFN [Most-Favored Nation] extension 
debate, has always been skeptical about trying to get business 
to do something that is not clearly in its interest. This 
discussion, in answer to Jennifer's question, was something I 
hope we can follow up on. How can there be human rights 
activities, human rights reinforcing activities, done by 
business that's also in business's own interests. Otherwise we 
continue down a road that has been proven fruitless for the 
last decade.
    Todd Rosenblum, with Senator Bayh.
    Mr. Rosenblum.  I want to touch on what I thought was 
disappointing testimony in terms of the assessment you are 
giving in a few areas.
    One is in the area of the Chinese Government's ability to 
control Internet usage versus those trying to work around the 
government controls. What I'm hearing today is that in fact, at 
the moment at least, the government has the upper hand. James, 
you mentioned that in 5 years the government would not at all 
be able to play a controlling role on Internet usage.
    The second area I think I heard some disappointing comments 
on was in China's initial implementation of PNTR and its WTO 
commitments in terms of how it has not at all led to a change 
by the Chinese of openness for industry and allowance for open 
communication. Looking to the future, knowing what the 
assessments were 5 years ago, where are the trend lines going? 
James, you mentioned a minute ago sending faster routers to 
China is helpful but I imagine the government purchases those 
same routers and its own filtering speed can increase. Given 
that the political walls cannot stay so high if China truly 
wants to compete globally in an economic sense, how does this 
correlate to the Internet question.
    Mr. Mulvenon. Well I would just say that from the beginning 
you have to understand I think that we're not looking at 
revolution anymore. Tiananmen has certainly soured a lot people 
on the revolutionary model of political change. And so when I 
think about how the Internet is actually going to change the 
situation in China--whether telecom modernization or e-
commerce--is it will facilitate the creation of a large body of 
people who are reasonably affluent, what we might even call 
under the Chinese definition of a middle class, who like their 
counterparts in South Korea and Taiwan over a 30-year period 
began asking themselves the question: Why can't I enjoy the 
same autonomy in my personal political sphere that I enjoy in 
my personal economic sphere?
    We've already begun seeing many of those trends. The 
government in my mind doesn't control the Internet. The 
government has shaped the regulatory and political and coercive 
environment in China in a way that many people simply self-
censor and self-deter themselves. If the Chinese Government 
strategy from the beginning was to control the Internet, I 
think it would have failed miserably. But in fact it came up 
with a much more realistic strategy that was much more tuned to 
Western business strategy and Western government strategy for 
dealing with China.
    All of those things aside, there are some inevitable forces 
here. And the inevitable force in my mind is the increasing 
affluence of the society that will be the engine. And to the 
extent to which they can use the Internet and the elements of 
the telecom revolution, to be able to facilitate that, over the 
long term it will cause people to ask that very uncomfortable 
question that the Communist Party doesn't want them to ask. 
Which is, is single party rule the way to continue economic 
prosperity in China? And for a lot of people it will simply be 
incongruent with their understanding that competition and 
variety is what's driving the market dynamism in the economy, 
but yet the government there's only one-stop shopping.
    Mr. Kaufman. I couldn't agree more with what Sharon said. 
If you look at it in the long term, you can't have economic 
freedom and not have political freedom. But as you know Keynes 
said ``in the long run we'll all be dead.'' In the meantime, 
there are some very bad things developing in terms of the 
Chinese public's opinions about America. You talk to Chinese 
about America and the Belgrade Embassy and you talk to Chinese 
about the spy plane and they have distorted views of what 
happened. They're getting a very distorted view about America. 
The point is many really do believe the TV sitcoms and music 
videos are America. So in the interim we may say yes, you know 
20 or 30 years from now it will all work out. But, if 4 or 5 
years from now we have a real problem over something, and we 
expect that the Chinese people are going to be sympathetic to 
our situation, understand our situation, anything about our 
situation, we're making a mistake. I think the Chinese 
Government is making a mistake. It is not in their interest to 
block out Voice of America and not have the Chinese people know 
more about America, what Americans are about, and how Americans 
view things. I think it is good to know each other in all 
cases, and it is not happening. And in fact I think WTO and 
PNTR has--if you ask for trends--has stopped this flow. They've 
just decided they don't have to do it. They are extremely, 
extremely, extremely good at making it look like a media-rich 
society. Everybody has access to TV, 83 newspapers in Shanghai, 
competition over the economy, everybody thinks it is all going 
along fine. But when you get to the bottom line and you do some 
surveys about what the Chinese people think, it should curl 
your hair if your hair isn't already curled. [Laughter.]
    And it is not getting any better. It is not in the United 
States or Chinese Government's interest. The only way things 
will change is if this Commission, if Members of Congress, and 
if President Bush say, ``This is not acceptable.'' Not because 
of any other reason but from the United States and Chinese 
standpoint it is just not good to have 1.2 billion people have 
an incredibly distorted view of the United States. We talk 
about the Muslim world, why do they hate us? If we're not 
careful we're going to end up in the same place with the 
Chinese.
    Mr. Wolf. Thanks, Ted. Alison Pascale is with Senator 
Levin.
    Ms. Pascale. Hi, thank you for your testimony. It is a very 
interesting subject. I wanted to ask about whether we could use 
the WTO in any way, to try to break down this wall that the PRC 
has put up between economic freedoms and political and 
informational freedom. And I guess my first thought was maybe 
it would have to come from businesses saying that they are 
being shut out. And it sounds from your comments like that may 
not happen. Although the comments that you just made maybe 
could lead us to think that it might be in our government's 
interest to insist on fairness and reciprocity in terms of what 
is accessible to the Chinese public in terms of their shaping 
their views and all of that. So I'd welcome your comments on 
whether we can use the WTO dispute settlement in any way and 
who would initiate that.
    Ms. Hauser. I'd just like to offer that in addition to the 
WTO dispute settlement route, there's another factor affecting 
change: The increasing strength of the local Chinese industry. 
The Chinese Government has supported its I.T. industry over the 
years, and they now have three, four, five major world-class 
I.T. companies. Great Wall is one of them; Legend is another. 
These companies will soon be exporting to other countries in 
Asia. We have to anticipate that the United States I.T. 
industry will encounter a competitive threat from these local 
Chinese companies, but this may actually advance some of the 
market reforms in China. Because once Chinese firms start 
exporting themselves, they're not going to want to put up with 
non-transparency in other countries. They're not going to want 
to put up with tariff barriers or non-tariff measures. We are 
already seeing some export of high technology products from 
China to the Asian region, and as this continues, we will see 
change come.
    Ms. Pascale. Do you mean they'll complain to their 
government that they're being shut out of Asian markets that 
they are trying to do business with?
    Ms. Hauser. They could quite well. They're going to have to 
comply with international standards for the I.T. industry. It 
is kind of a technical point but it is important. Right now the 
Chinese develop their own Chinese national standards for a wide 
variety of products. They do that to the exclusion of 
international product standards--safety certification and so 
forth. Once they start exporting, in order to build a market in 
other Asian countries, they're going to have to build their 
products to that international standard. Those international 
standards require openness, transparency and adoption of 
technical specifications that make products saleable around the 
world, or connectable. They are not quite there yet.
    Ms. Hom. On the WTO, I think that China's entry will test 
the commitment of the WTO members to certain principles, such 
as liberalization. After China's entry, and especially in the 
next 3 to 5 years in light of member implementation schedules, 
I think there will be some interesting fallout when China's 
exports increase exponentially onto the market. The second 
point I want to make is that it is useful to be more specific 
when we are talking about the WTO and its potential usefulness 
in promoting human rights, civil society, or democratic 
concerns. Even recognizing that there are still debates on the 
human rights and trade--dis--connections, it is useful to 
distinguish between reference to the WTO as reference to the 
agreements themselves, the WTO member states--and the different 
points of intervention or leverage--the WTO Secretariat--
primarily viewed by developing countries as a U.S. and E.U. 
dominated body--or the dispute settlement mechanisms. In 
addition, it might be helpful to focus on specific sectors, 
including telecommunications, financial services, and 
insurance.
    Another important trend at the WTO, in response to strong 
pressures from the international NGO community, is the 
increasing space for NGO voices, although very small at the 
moment. So when we think about WTO related issues, we should 
keep in mind that it is not a static organization or process, 
especially in terms of China's implementation.of the regulatory 
structure in place. NGOs, governments, and business can use 
this opportunity to contribute to the development of a trade 
regime that incorporates human rights concerns. NGOs can 
continue to show that we can play a proactive, positive, and 
productive role in this process.
    Mr. Wolf. Mike Castellano with Congressman Levin.
    Mr. Castellano. First off thank you very much for your 
interesting testimony and the useful back and forth here. A 
couple of you mentioned that we're perhaps in the worst of all 
worlds in terms of the impact of the role that United States 
business is having in China. I wonder if you could elaborate on 
that just in terms of how the United States businesses 
community in China is contributing to making the worst of all 
worlds.
    Mr. Kaufman. I just think they're doing what they do. Which 
is they're going to the Chinese Government and someone has said 
here they have to face all of these different regulations. None 
of the media companies are going in there and saying we're 
going to really be tough about what we're broadcasting in here. 
They are saying if you do not want us to broadcast this, we 
will not broadcast this. I don't see any indication that 
they're going to play tough with the Chinese Government because 
you can't play tough with the Chinese Government. They've got 
the whole game.
    And the second thing--I agree with James--technology can 
help. But it can also hurt if technology to set up filters is 
sold to the Chinese for Internet filtering. The press is full 
of information of corporations helping the Chinese set up the 
same kind of filters that they've set up in the United States 
to filter out pornography. They just take those same techniques 
to distort the free flow of information.
    The final thing I'd say is the WTO was something that was 
debated in this country--and there was a great deal of 
discussion about how economic freedom was going to lead to 
political freedom. I think the world is beginning to deliver on 
the economic freedom and I believe the Chinese are committed to 
delivering on the economic piece. I think they are really 
dedicated to trying to make WTO work economically. But 
politically, it is like a dark hole. There is no end and it is 
not in any corporation's interest to get sideways to the 
Chinese about these political issues when they've got bigger 
fish to fry in the economic issues.
    Mr. Castellano. Right. I wonder though, do you think it is 
possible to sort of separate out what we might call legitimate 
business activities versus--I don't want to use the word 
illegitimate--but the maybe more troubling activities in terms 
of the assistance to the Chinese Government of enabling 
censorship, enabling filtering that we'd view as a violation of 
First Amendment rights, or as a violation of international 
human rights?
    Mr. Kaufman. Sure you could do it--the same way we don't 
sell strategic weapon systems. Things that we think are 
strategically sensitive we don't allow American corporations to 
sell those things to other countries. Clearly, is it in the 
realm of possibilities? Yes. Could you say that you're required 
to help with these kinds of things? Yes. I don't recommend it. 
But I think there is some way you could go down. I think if the 
United States Government decides that they are going to make 
this a higher priority than they have in the past, considering 
the plethora of priorities every time we sit down with the 
Chinese, then I think the Chinese will come along. But they are 
only going to do it to the extent that they believe the United 
States Government is really serious and has it as a priority. 
As I said in my statement, they are very good. You talk to 
American businessmen that go over there, they say hey, what are 
you talking about China? I go to my hotel room I've got CNN, I 
go down to the lobby there's the Asian Wall Street Journal, 
what's the problem? They are very, very good at what they do. 
And they give the people that go over there not just business 
people but also policymakers, the impression that there is free 
flow of information.
    However, they've got it all under control.
    Mr. Castellano. I need to give the ITI a chance to respond 
to my previous question about your views on the idea of trying 
to distinguish between legitimate activity and more troubling 
activity by the United States business community in China.
    Ms. Hauser. Well I think we'd be making a real mistake if 
we were to go down the slippery slope of trying to restrict the 
information technologies that American firms can sell in China. 
I think it would be very short sighted. We've had this long 
debate in this country about export controls and controlling 
technologies that we can sell overseas. When you look how 
quickly technology is evolving, yesterday's supercomputer is 
today's laptop. And it is just getting more and more that way. 
So trying to specify technology is crazy in my view.
    I think it is also important to look at the experience of 
American companies when they've invested in China. Once a major 
American corporation, makes its investment decision to set up 
business in China, whether manufacturing or setting up sales 
organizations, it treats its Chinese employees as corporate 
employees of that company. Companies don't make a distinction 
between how they treat a Chinese employee and how they treat an 
employee elsewhere, say Denmark. They are all employees of the 
same corporation. So the same rules for salaries and bonuses 
and 401K's and all of the other corporate benefits apply, 
allowing only for differences in local wage levels and culture. 
And we've seen in a number of ITI member companies a very 
positive experience by the employees in China. All of a sudden 
they work for an American company or a multinational and they 
have regular, high-wage salaries. That means better wages, 
better housing, better schooling for their children, etc. It is 
the whole experience that we've all had in this country. And 
the same thing goes with the way that corporations adhere to 
environmental rules. It really is a positive story. The 
difficulty is in something Sharon mentioned earlier is in small 
pockets in China.
    I think the biggest trend problem that we have facing us is 
the digital divide issue--the fact that economic development is 
so uneven throughout that huge country. And that means that the 
greatest inhibitor to the increased use of the Internet is not 
government regulation or control or censorship, it is the cost. 
Can people afford computers? Can they afford to go cyber cafes? 
Can they afford to get on the Net? And unless we work with the 
Chinese to help broaden out economic development across the 
country, the chances of more political difficulties and 
difficulties for our companies doing business on the East Coast 
zone there are going to be greater. It is a huge economic issue 
and political.
    Mr. Wolf. Thanks, Kathryn. James even though the red light 
is on I see you want to add something.
    Mr. Mulvenon. No, no, it is just an ADD disorder that I'm 
not taking medicine for. I would just push back a little bit on 
some of the characterizations that have been made about the 
Chinese media environment, the Chinese publishing environment 
and the relationship between American companies and the Chinese 
Government in terms of regulatory apparatus.
    I'd be the first to say that American and Western companies 
are operating in an extremely uneven regulatory environment. 
The Chinese Government can move the goal posts in many cases. 
In many cases the Chinese Ministry of Information Industry, 
which is the main regulator of the I.T. industry is also the 
parent of some of the most important economic players in the 
I.T. industry. A lot of these Chinese companies that Kathryn 
was talking about like Huawei and Datang and Julong and 
Zhongxing. These powerhouses which are all becoming globally 
competitive are all very closely affiliated with the Chinese 
military, with the Chinese Ministry of Information Industry. 
These are powerful companies and it is difficult to compete 
against these companies particularly in an environment like 
China where there are language barriers and everything else.
    Nonetheless, there are some success stories of American 
companies and groups of American companies pushing back 
seemingly against insurmountable odds, to change the 
environment in ways that are very positive. One that I would 
point to is that there was an episode a few years ago that RAND 
has written a report about the formation of a set of encryption 
regulations in China. And once you peeled that a little bit, 
you found out that this so-called State Encryption Management 
Commission was in fact controlled by the Ministry of State 
Security, which is the foreign and counterintelligence service 
in China.
    There were a variety of motivations for them to set up this 
Commission. They wanted to control all encryption products in 
China including 56-bit encryption in Web browsers all the way 
down to that level. On the one hand, these people were very 
concerned about the proliferation of encryption. They also 
wanted to get in on the front end of what was going to be a 
very lucrative e-commerce market. Now when you control the 
regulatory apparatus, you get to decide whose products are 
certified first. This is a very powerful position in China. But 
the American Chamber of Commerce and the United States-China 
Business Council and the good people at USITO got together long 
before the Commerce Department got out of their easy chair and 
mobilized a very aggressive campaign against this. Going all 
the way to the highest levels of the Chinese Government and got 
the regulations modified so that it didn't include Web browsers 
and other sorts of low level encryption enabled software. But 
in fact only involved the very high end e-commerce related 
applications.
    So there's a perfect example of where the Chinese 
Government for a variety of commercial and political and 
security reasons, tried to corral and regulate an important 
section of the information technology realm. And by banding 
together, American companies were able to push back in a very 
successful way.
    We should view WTO the same way. The Chinese view WTO as 
the opening bargaining position. Long Yongtu has said in public 
on many occasions that he's going to put a hundred dispute 
resolution people in Geneva. My response to him is that will be 
sufficient for your claims against us, you better put another 
200 in for our claims against you. It is going to be a very, 
very acrimonious negotiation like all negotiations are with the 
Chinese Government. But those are forums where we can really 
have a lot of progress. And I agree completely with Sharon. The 
international flavor of that and the fact that those mechanisms 
are multilateral plays to our advantage. And we are going to be 
able to exploit those mechanisms to have some pretty 
interesting fights with the Chinese.
    Mr. Wolf. Thanks. Let's start another set of questions if 
you don't mind. Many Chinese companies use the Internet as a 
fundamental tool of business. Whether it is marketing, 
research, developing their own global supply chains, they need 
an unfettered Internet. Is there any sign that the Chinese 
Government activities to monitor and control are having an 
impact on the commercial sides ability to use the Internet? In 
other words are they able to bifurcate the economic use of the 
Internet from the political and informational use of the 
Internet?
    Mr. Mulvenon. I would just say that it is difficult for a 
lot of companies to make money on these types of things right 
now in China. So we have to sort of distinguish what we mean by 
economic benefit. The dot com implosion affected the Chinese as 
much as anybody, although it hasn't been written as widely 
about as others.
    To a certain extent I would argue that they rely more on 
this self-deterrence model, which is to say you have a lot of 
effective portal activity, for instance, in China. Some are 
economically lucrative and as long as those Internet service 
providers and those portals have the so-called ``big mamas'' 
sitting in these chat rooms kicking off people who criticize 
the Communist Party and Jiang Zemin and others--and even that's 
not as successful as they would like--there's a tremendous 
amount of economic activity as well as flow of ideas and 
discussion going on in China that goes on unfettered.
    I spend a lot of time on the Internet in China looking at 
these discussions and it is pretty clear to me that there are 
large sections of people's daily lives that have simply been 
abandoned by the Chinese Communist Party in a tacit compact 
with the population. There is bifurcation between political 
control and economic prosperity. And I think we miss the point 
if we focus on the fact that they continue to crack down on 
investigative journalists and other people who are trying to 
push the envelope.
    But look at the other side of the debate. Here's this 
fireworks explosion at this children's school in Southern China 
and the Chinese Government came out with their typical response 
which is they weren't making fireworks there and shut down 
their local investigative journalists who are looking at it. 
But there was such a national outcry via other investigative 
journalists from newspapers, from television, and from the 
Internet, that the Premier of China had to go on television and 
apologize for lying to the Chinese people about what happened 
in that school. And that's not just the Internet, that was the 
entire media environment that made the Chinese Government lose 
face and have to reverse itself in public on television. These 
kinds of things didn't happen 5 years ago, 10 years ago, 15 
years ago, 25 years ago. And it is because of this 
liberalization of the media provided that you don't criticize 
the Party and Jiang Zemin.
    Mr. Wolf. John.
    Mr. Foarde. Ted, let's pick up the whole question of 
jamming for a minute, which I'm interested in. Partially 
because I was involved in complaining to the Chinese Government 
about jamming of VOA in mid-1989, just weeks after Tiananmen. 
VOA is telling you that jamming is redoubled since the first--
--
    Mr. Kaufman. It has increased.
    Mr. Foarde [continuing]. Of the, since the Lunar New Year. 
Has it been uniform across the whole country or just in some 
parts of it. In other words can I hear VOA if I'm out in the 
wilds of Gon Zhu, or not in Shanghai or what's the situation?
    Mr. Kaufman. It varies. Essentially, Mandarin is strongly 
jammed but you can hear it in lots of parts of the country. 
Cantonese is strongly jammed. Tibetan is strongly jammed. You 
can hear it outside Lhasa. Radio Free Asia, even more strongly 
jammed. It doesn't mean you can't pick it up, but going back to 
the same thing mentioned earlier about the proxy sites. If you 
listen 5 nights and it is jammed, are you going to turn up the 
6th night?
    One thing that's kind of insidious about this is, I've 
talked to students at a number of universities, and they think 
it is our not caring enough to broadcast properly. The 
government says they don't jam. So when people have bad 
interference or they don't have a good signal, they attribute 
it to our lack of interest in communicating with them. The 
government uses different ways to jam. They can jam by 
broadcasting on the same channel. The big thing now is music 
that they broadcast over the same stations that we're using. 
But we're willing to take on the battle with them in terms of 
jamming and trying to get around jamming. We went through the 
same thing with the Soviet Union. The problem here is that 
there is the illusion of a media-rich environment.
    I've heard about the fireworks factory and I know about the 
fireworks factory, but there's stuff that goes on everyday in 
China. And when you talk to people, I talk to the head of a 
bunch of newspapers and he said that their news and analysis 
comes from Beijing. They can have ads, they can compete, they 
can go after advertisers. They can do all these things, so if 
you look at it, it looks like a pretty healthy environment 
economically. It is always healthy economically. But 
politically, they've been very, very talented at separating the 
two out. Like the group that went and obtained the change in 
the encryption law. I don't have any doubt that if four or five 
American corporations who are major players in China went, 
because of an economic concern, to the Chinese Government and 
expressed their concern, they would get some reaction.
    But no one is going to go to the Chinese Government about a 
human rights violation and no one is going to go to China about 
the lack of information about America. And every time I hear 
that over there, it is just like here. Small business people in 
chat rooms, people listening to radio. It isn't like here. 
Here, when you turn on your television set, you don't know what 
you're going to get. Over there, if you want to find out what 
the government thinks just turn on your television set wherever 
it is in China. Now, is it 100 percent? No. Is it better than 
it used to be? Yes. And will it eventually be solved by 
economic growth and the Internet? I totally agree with it. But 
in the interim there are some years in here where it could be 
very dangerous for the United States to have this many people 
feeling they know what America is, it is even worse. It is not 
so much what you know, it is what you don't know.
    And so that's why we will continue to fight on the jamming, 
we will continue to fight on blocking the Internet and getting 
around blocking the Internet and working to do all those sorts 
of things. But it would sure make life a lot easier if the 
United States Government said that it was partly their 
responsibility. We're not going to get it somewhere else. 
Unless the United States Government steps in and says, jamming 
is not good idea, Internet blocking is not a good idea, lack of 
reciprocity is not a good idea. I don't see things changing. 
Ultimately will it all work out? Probably.
    Mr. Foarde. Anybody else want to comment?
    Ms. Hom. I want to pick up on Ted's comment about the 
diversity of voices but really in fact only one story is 
presented. I agree that there is a warped perspective by a 
majority of Chinese about the United States and Americans. But 
I also think there is a dangerously limited and inaccurate 
Chinese view about their recent Chinese history, especially 
since the crackdown in 1989.
    There are a number of sensitive issues within China that 
need healthy debate and discussion, which need more than one 
story told. These include June 4 and its aftermath, religious 
freedom, Tibet, Xinjiang, and Taiwan, issues where the only 
permissible view and the dominant view is the official story.
    Mr. Kaufman. I just want to say one thing. I've been 
talking about Voice Of America and I think that's really 
important, but I could not agree with Sharon more. It is just 
an easier argument to make about America. But if you think they 
don't like Voice of America, they hate Radio Free Asia. They 
hate the fact that someone is over there telling what is 
actually going on in some of these communities.
    It is like what happened with the fireworks factory, except 
every day there are demonstrations, there are concerns, there 
are labor violations and that's what Radio Free Asia reports. 
They really go after Radio Free Asia in terms of jamming which 
is some indication of what they think about it. I couldn't 
agree with Sharon more. The Chinese people don't know about 
China. They don't know what's going on in China. And I believe 
in freedom of the press. I believe that what they are doing is 
creating a time bomb so that when the people do find out, 
there's going to be a massive explosion. I happen to think it 
is in China's interest to have Radio Free Asia and Voice of 
America in there. But the Chinese Government surely does not 
agree.
    Mr. Wolf. Mike.
    Mr. Castellano. I'd like to go back to the idea of there 
being some synergy besides just in theory between WTO 
obligations and the advancement of freedom of communication in 
China. And I'm just trying to think and I guess this is just 
more sort of a comment--I am just trying to think of ways in 
which concrete WTO obligations which might dovetail nicely. And 
one example I'm thinking of is the across-the-board provisions 
of services. We've got a pending WTO round of negotiations and 
to the extent that we can come up with commitments by China 
which might make it a lot more difficult for them to do some of 
the things that they are doing. It would be a situation where 
the business community would be on board with something that 
also is helping human rights and could be a sort of a virtuous 
partnership.
    Ms. Hauser. I think one of the key problems that China is 
going to face in this next round of WTO negotiations is to meet 
their international obligations while ensuring a high level of 
domestic economic growth. And we can question what percentage 
of economic growth they've had in recent years, but the 
stability of the current Chinese Government really depends on 
them growing that economy. And the political issues we can keep 
separated as long as there is the perception if not the reality 
of high economic growth. So I think the Chinese are going into 
the round--the key thing on their mind is how to keep the 
economy growing while going through all of these very difficult 
changes.
    Ms. Hom. I want to add to that--I think the stability of 
the current regime is based upon maintaining economic growth 
and providing economic prosperity. However, in the sectors that 
are seriously adversely impacted by WTO accession, e.g., the 
agricultural and subsidized heavy industry sectors, we are 
already seeing massive unemployment in the hundreds of 
millions. The official Chinese response to these dislocations 
appears to say, let's bite the bullet, these are the losers 
that we have to write off for WTO entry. But the reality of 
hundreds of millions of unemployed, angry, hopeless workers and 
peasants storming government offices, or organizing huge 
protests that can and have turned violent--this undermines 
overall stability and economic modernization. Operating on a 
very short event horizon, the official view is really short-
sighted if it does not take into account the need to put the 
human suffering and social costs back into the immediate and 
long-term picture.
    Mr. Mulvenon. We also have to realize one thing about the 
Chinese Government. It took a long time but we were able to 
convince Zhu Rongji and a number of his key allies in the State 
Economic Trade Commission that joining WTO was good for them to 
use as a weapon against their recalcitrant opponents in the 
bureaucracy.
    To the extent to which we have built alliances with Chinese 
Government officials in using WTO to change China, it is by 
pointing out the self interests that the two sides had, in 
breaking up people in the sort of backward-looking, backward-
thinking, sort of atavistic, Li Peng camp that wanted to slow 
everything down and make sure that China didn't move forward 
fast.
    And we've been able to make a lot of alliances on key 
issues: Intellectual property rights has been an area where we 
haven't had as much success as we would have liked. But there 
have been other areas like these encryption regulations that we 
can point to where WTO, the United States Government, and 
United States businesses actually were able to change the way 
things were done in China for the better, by pointing out the 
self-interests of certain progressive people in the Chinese 
bureaucracy.
    Mr. Wolf. I know that surveys in China are very suspect. 
But there was a recent survey by the Chinese Academy of Social 
Sciences that said, of the people surveyed, 25 percent of the 
time that they spent on the Internet was on sites outside of 
China. It was 9 percent on non-Chinese language sites, and 16 
percent on Chinese language sites outside of the PRC. It didn't 
analyze what those sites were. The statistics for teenagers in 
another survey was that 15 percent of their time was spent on 
non-Chinese language sites outside of China and 25 percent on 
Chinese language sites outside of China, that is 40 percent on 
non-PRC sites. Does that have implications?
    Mr. Mulvenon. Nor should we view it that way. There is a 
global Chinese diaspora of information out there. And we've 
tracked a lot of that traffic that goes to Chinese language 
sites outside the country and it is to news sites in other 
places in Taiwan and Hong Kong. And so I would argue that, 
whereas in the early days in the Internet we had the potential 
for Chinese Web surfers, because there was so little good 
quality content, to actually go to a lot of foreign language 
sites to look for information or just to look around.
    From my discussions are with Chinese who spend a lot of 
time on the Internet, you can spend almost all of your time 
within a Chinese language Web world. That's not to say that if 
we put together efforts that are in Chinese they might not go 
to them, but there's a Chinese world you can stay in.
    The level of English language penetration isn't as high as 
it should be either. But there is a fundamental question here, 
which is there seems to be this underlying assumption that if 
only they went to English language materials that somehow they 
would grasp onto this theoretical truth.
    I had the misfortune of landing in China the day we dropped 
five JDAMS on the Chinese Embassy in Yugoslavia. And of course 
all my meetings with the military were canceled but I spent my 
4 days out in the protests. Sixteen hours a day engaging in 
Hegelian dialectic with the protesters asking them what they 
were upset about. And what I found was very curious because I 
had gone over there saying if you just go to Newyorktimes.com 
or Washingtonpost.com or Le Monde or Deutche Welle or 
something, you'll get an account of what really happened.
    And the response I got at all levels from students to 
teachers to cadres to government officials to friends was, 
Western media and VOA are tools of Western hegemonism and 
imperialism. And what they're saying is not truth. We're more 
inclined to believe the government that has been lying to us 
about Tiananmen, about the Great Leap Forward, about the 
Cultural Revolution. And I was baffled. I really was, because I 
kept saying but that government has been lying to you for 30 
years, and you know they've been lying to you. They lied to 
your parents. And they're going to continue to lie to you and 
these are urban college kids, your most progressive end of the 
spectrum in terms of their worldliness and cosmopolitanism. And 
I said there's this world of truth out there and they said 
``CNN is a tool of the United States Government.'' And so for 
me, what it taught me was one thing which was that we can't 
ignore the function of nationalism. And no one would deny that 
the major force in China right now replacing all these other 
ideologies that are bankrupt, is nationalism, which is a filter 
that they use to process all outside content. And to simply 
assume that if we provide it, that therefore it will be 
acknowledged as truth and what the government says is a lie, is 
overly simplistic in my mind.
    Mr. Kaufman. I don't know where to start. First off they 
don't have access--all they know about Voice of America is 
through reputation because the broadcasts are being jammed. The 
students you are talking to in the street, the vast majority of 
Chinese people still don't have access to the Internet, and 
when they do--they have blocking of sites. They're living in a 
world where what they hear about outside sources like Deutche 
Welle and Voice of America and BBC is what the government tells 
them about Deutche Welle and BBC and Voice of America.
    There is the illusion because they can watch TV, they can 
listen to radio, they can read the newspaper that somehow 
they're getting objective information but they're not.
    When I talked to thoughtful Chinese, when I was over there 
after the Belgrade bombing, it was appalling. They thought 
there was no genocide. I said, well, why do you think America 
is in Kosovo? Why do you think they're there? Is it because of 
the natural resources? Is it because they want to colonize the 
country? I could find no one who would believe there was any 
genocide going on in Kosovo before the American troops went in. 
All the media in China said there was no genocide in China. 
Because of jamming they couldn't get it on Voice of America, 
they couldn't get it on the Internet. The couldn't get it 
anywhere. So I say this is a situation where they are not 
getting access to the outside and I think it is beginning to 
tell. That's why the kids are in the streets, and think the way 
they do. These students can't listen to Voice of America. They 
tell me that they can't pick up the reception, they don't 
listen to other sources and they don't have access to the 
communication, but they think they do. They think they're 
living in a media-rich environment.
    Mr. Mulvenon. The question I would have though, is if they 
don't believe the U.S. Government's statements about the 
bombing of the Embassy, if they believe that we are lying. If 
there is a secret CIA, Pentagon conspiracy that actually bombed 
it intentionally. We do have to ask ourselves a difficult 
question. Why would they believe VOA's account?
    Mr. Kaufman. I'm just saying they're not seeing any U.S. 
statements. There are no U.S. statements. I haven't seen U.S. 
statements in the People's Daily. I was over there during that 
period. I didn't see a U.S. statement on what happened in the 
People's Daily or anywhere. Nobody hears what the American 
President says. There's no access to that kind of information.
    Ms. Hom. And Beijing took its time releasing information 
about the apology.
    Mr. Kaufman. The apology was not released.
    Ms. Hom. I wanted to add to James' point about nationalism 
because I think that's an ideologically powerful way in which 
the Chinese Government shapes and manipulates the story. But it 
is not just the government that plays the nationalism card. 
Last Fall, during the Olympics bid, I noticed that there were 
huge banners in Chinese displayed in various McDonald's in 
Beijing. the banners proclaimed: If China wins, we all win. 
This is part of the whole corporate positioning that McDonald's 
is in fact a ``Chinese'' company.
    In other words, if we look at transnational companies as 
vehicles for opening up the cultural or other space, the real 
move, at least in the food sector, is to adopt the 
nationalistic rhetoric that plays well with the local Chinese 
customers, and to present these companies as ``local'' 
companies.
    Mr. Mulvenon. There was a particularly embarrassing 
incident involving the general manager of the Microsoft Office 
in Beijing who very shortly after the Belgrade bombing 
organized a rally in which the Chinese workers in that office 
denounced the United States Government for its bombing of the 
Embassy in Belgrade. Now, Microsoft had the foresight to get 
rid of her after that rally. But this is symptomatic maybe of 
the sort of clientitis that unfortunately in as difficult a 
regulatory and economic environment as China is, it is an 
understandable instinct. To sort of say, Washington is a hell 
of a long way from here. And they're not here to protect us 
everyday when we are trying to do our business. But it is 
insidious in that respect.
    Mr. Kaufman. If the feeling is that Voice of America, Radio 
Free Asia, BBC are some relic of the cold war, and we cannot 
affect behavior the feeling is wrong. While we were bombing 
Serbia, during Kosovo, 26 percent of the people in Serbia were 
listening to Radio Free Europe Radio Liberty and in the Kosovar 
camps over 80 percent were listening to Voice of America. The 
broadcast affected what happened in the streets in Belgrade. 
This is not something that's a holdover from what we did in the 
cold war. This is an incredibly effective way to have people 
learn what's going on. Not just the American point of view, but 
what's going on in their own country. But I tell you, if we are 
not listened to, there is no way we are going to have the 
impact in China. The idea that somehow the United States 
Government position will just get through because there are 
television sets and so many people in China listen to 
television and so many people listen to FM or so many people 
listen to AM or so many people read the newspaper or use the 
Internet or so many people have satellite dishes, is just not 
factually correct.
    It is an illusion which has very broad appeal. It is a 
media-rich environment, but not an idea-rich environment, and 
not an area where the United States will be understood.
    Mr. Wolf. John.
    Mr. Foarde. Just a comment that this has been an extremely 
rich conversation and thank all of you for joining us this 
afternoon and being so generous with your time.
    Mr. Wolf. I do have one more question and this goes back to 
what you were saying earlier James about the effectiveness of 
spamming from the outside. Could you distinguish for a second 
between Chinese Government policies vis-a-vis access to Web 
sites versus their activities or their practices vis-a-vis use 
of e-mail. Receiving e-mail, mass e-mail from overseas however 
the technology is done in spamming, as well as use of e-mail 
within China. We all give the example of the fireworks factory, 
but there are, as you said, chat rooms and e-mail within the 
PRC with an enormous and diverse discussion and debate going 
on. Could you distinguish between those two: E-mail per se and 
access to Web sites?
    Mr. Mulvenon. I would say that until about 6 months ago, e-
mail was a much better way of communicating. Because it was 
very difficult to filter e-mail content. You can filter the 
headers, so that's why it is critical for people who run VIP 
Reference like Richard Long and those people to change the 
``From'' line every time they send an e-mail because the 
Chinese would very assiduously mark the originating address 
every time. But there's billions of potential IP addresses that 
you could forward things from.
    I would point out that in the last 6 months the real 
challenge is that American Internet service providers have 
begun cutting the links to the Chinese Internet domain because 
China is now the world's largest source of all the annoyance 
spam that shows up in our AOL inboxes and all of our other 
inboxes. It is being routed through badly protected Chinese 
servers and Korean broadband servers to the point where major 
ISP's in the United States are no longer permitting e-mail from 
Chinese domains to enter the United States because they assume 
it is spam. And they are getting so many complaints from their 
subscribers about China-origin spam. So we are cutting off our 
nose to spite our face in a sense--all the cliches you want.
    ISP's are deciding in the greater good to throw the baby 
out with the bath water. And what it means is in many cases in 
the last 6 months, I've had e-mail from Chinese friends that 
just never arrived. And they came to DC and they said I e-
mailed you about my trip and I said well I never got it. And it 
turns out it was because Qwest or somebody had deleted it 
before it got to me because they thought it was going to be 
some rerouted porn spam from Estonia.
    Mr. Wolf. Well, thanks. And thank the four of you very 
much. I didn't mention the specific roundtables that we were 
going to have and I said to look at our Web site. On June 24 we 
are going to have one on journalistic freedom in China and we 
will try to look at that a little more broadly perhaps than we 
were going to.
    We were going to focus on the print media. We will still do 
that, but we will also try to spread out a bit. And, again, 
thanks to all four of you, and thanks to all of you who stayed 
throughout this very interesting session.
    [Whereupon, at 4:22 p.m., the hearing was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of Edward E. Kaufman

                             april 15, 2002
    My name is Edward Kaufman and I am a member of the Broadcasting 
Board of Governors (BBG). The BBG is a bipartisan group of eight 
private citizens plus the Secretary of State, who oversee all U.S. 
Government non-military international broadcasting. This consists of 
Voice of America (VOA), Radio Free Europe/Radio Liberty (RFE/RL), Radio 
Free Asia (RFA), Worldnet Television, and Radio and Television Marti.
    Our budget is approximately $526 million, we have 3432 employees, 
and we broadcast in 65 languages around the world. We were created by 
the Broadcasting Act of 1994 as an independent part of the United 
States Information Agency (USIA) and became an independent Federal 
agency in 1999 when USIA was subsumed into the State Department.
    The lack of free flow of information in China has strongly 
concerned the Board since the BBG's inception. The Chinese policy 
regarding the internet is just the extension of their policy toward any 
objective source of information about what is occurring in China or the 
rest of the world. All levels of the Chinese Government are committed 
to controlling any information that might reach the Chinese population.
    The government controls, from Beijing, all radio television and 
internet dissemination of news throughout China. This is done in what 
has become a media rich environment. There is the illusion that there 
are many voices in China, but in reality there is only one. Wherever 
you travel there are many newspapers, but only one story. Many of these 
outlets no longer receive subsidies from the government, and must 
compete for advertising revenue and financial viability. However, 
competition does not extend to the news and analysis which is closely 
monitored and controlled by the government.
    The Chinese Government is especially good at giving visiting 
Western policymakers and business representatives the impression of a 
free press in China. CNN and BBC are available at most first-class 
hotels, and the International Herald Tribune and the Asian edition of 
the Wall Street Journal are sold in the lobby. However, none of these 
are available to the most Chinese.
    In an attempt to overcome China's internal censorship, and to bring 
truth and objectivity to China, U.S. international broadcasting 
provides comprehensive news and objective information to the people of 
China every day through radio, television, internet, and satellite 
broadcasts. These services offered in Mandarin, Cantonese, and Tibetan 
languages by VOA and RFA bring news and information to millions of 
eager listeners and viewers. However, these channels of communication 
are often systematically blocked, either by direct jamming of 
broadcasts, interference from local stations, or other governmental 
policies that frustrate free access. It was hoped that China's 
acceptance into WTO would result in a reduction of the jamming. 
However, since the start of the Chinese New Year, the jamming has 
increased.
    This is especially discouraging because the United States has given 
unprecedented access to Chinese Government international broadcasting. 
China government television, CCTV, has wide dissemination in the U.S. 
including California's largest cable network and Washington DC cable. 
It will soon be on Time/Warner's cable systems including New York City 
and Houston. China's international radio, CRI, broadcasts into the U. 
S. without jamming, and is available on AM and FM radio stations across 
the country.
    The lack of reciprocity extends beyond broadcasting to news 
gathering. The Chinese Government has allowed VOA only two reporters in 
China, both English-only, and no RFA reporters. In addition, they have 
recently turned down a request for the addition of two Mandarin 
speaking reporters for Beijing and Shanghai. The Chinese Government 
complains about their coverage, but will not allow native speaking 
reporters to serve in China.
    At the same time China's CCTV, and CRI have numerous bureaus and 
reporters in the U.S. CCTV has offices in New York and Washington, DC 
with two reporters each. CRI has two reporters in their Washington DC 
office, two in their New York office and one in their Los Angeles 
office.
    Because the internet could provide a new means to transmit 
information, Beijing fears its threat to their information monopoly. At 
the same time they recognize the Internet's economic and educational 
importance. The government has instituted draconian regulations and 
conducts widespread electronic blocking of particular Web sites, 
usually international news sources . Once again, the government 
choreographs all this activity beautifully. When President George W. 
Bush visited Shanghai to attend the meeting of Pacific Rim nations in 
October 2001, the Chinese Government stopped blocking a number of 
internet news sites including those of CNN, the BBC, Reuters, and the 
Washington Post. The blocks were reactivated following Bush's 
departure.
    As a result of all these governmental measures, the Chinese people 
are woefully short of objective information on the United States and 
its people. Ironically, they believe that they understand the United 
States quite well from syndicated sitcoms, movies, and music videos. 
Over the long-term this prevents development of a healthy China-U.S. 
relationship. In the short term it is a policy disaster. The Chinese 
people's responses to the May 1999 bombing of the Chinese embassy in 
Belgrade and the April 2001 captured spy-plane incident are notable. 
The Chinese Government's monopoly of information media enabled it to 
orchestrate Chinese public reactions to both incidents. In May 1999, 
rock-throwing demonstrators attacked the U.S. embassy. In April 2001, 
Chinese domestic media presented a one-sided version of what happened 
to the U.S. spy plane, but deliberately toned down its rhetoric, and 
the demonstrations were minimal. Finding anyone in China who has heard 
the U.S. version in either case is difficult. Ultimately, in a time of 
crisis with China, the U.S. president has no way to communicate 
directly to the Chinese people.
    The Chinese people are in the place of the old saying, ``the 
trouble with most folks isn't so much their ignorance as knowing so 
many things that ain't so.'' One of our recent surveys found that 68 
percent of the urban dwellers in China consider the United States to be 
their nation's No. 1 enemy.
    The United States cannot afford to have 1.2 billion people, about 
18 percent of the world's population so ill-informed.
    What can we do about this?
    President Bush, State Department officials, and Members of Congress 
can demand reciprocity from the Chinese. Stop jamming international 
broadcasts, and allow more U.S. journalists into China.
    U.S. Government pressure can be brought on neighboring countries 
who are reluctant to allow VOA and RFA to broadcast into China from 
their countries because of Chinese Government pressure.
    More money can be allocated to the infrastructure required to get 
our signal through. The U.S. needs refurbished shortwave facilities, 
access to additional satellites, and leasing of additional medium wave 
facilities.
    The internet can be key. Regular usage is now at 5.8 percent in 
China and growing rapidly. Among better-educated 21 percent use the 
Internet regularly. The Internet is the perfect medium for the U.S. to 
communicate directly with individual Chinese, and the U.S. has to be 
single-minded in putting pressure on the Chinese to stop blocking U.S. 
internet sites. In the meantime we should spare no expense in finding 
ways to penetrate the blocking.
    The debate on the Bill which established the Congressional-
Executive Commission on China is full of rhetoric that free trade and 
economic parity for China would lead to the free flow of ideas. If 
anything, since the passage of that bill the Chinese Government has 
done even more to slow or stop the free flow of information in China.
    It is essential for a future of healthy China-U.S. relations that 
all levels of the U.S. Government demand China end censorship, jamming 
and blocking and deliver on the promise of a free flow of information.
                                 ______
                                 

                  Prepared Statement of Sharon K. Hom

                             april 15, 2002
                              introduction
    Thank you to Ira Wolf and John Foarde for inviting Human Rights in 
China (``HRIC'') to participate in this Internet and Freedom of 
Expression round-table. The inclusion of an international human rights 
and Chinese NGO perspective, together with business, government, and 
national security perspectives, will hopefully contribute to a 
productive and lively exchange and sharing of views.
    Founded after the June 4 crackdown, HRIC is an international non-
governmental organization dedicated to the promotion of universally 
recognized human rights and the advancement of the institutional 
protections of these rights in China through our education, advocacy, 
and activist- research programs. HRIC is dedicated to:

    <bullet> promoting a growing rights consciousness among the Chinese 
people;
    <bullet> supporting the development of civil society and empowering 
peaceful grassroots activism;
    <bullet> advocating effective implementation of China's domestic 
laws and practices in compliance with international human rights 
obligations; and
    <bullet> acting as a catalyst for democratic social change.

    The rapid development of the Internet in China presents significant 
opportunities and challenges for advancing these human rights goals. We 
also recognize there are multiple stakeholders interests, including the 
Chinese Communist Party (``CCP''), competing PRC ministries all 
claiming a piece of what they view as lucrative regulatory territory, 
domestic Chinese telecommunications companies, foreign investors, media 
and telecommunications companies, and domestic and international NGO's.
    Yet there is probably a point of convergence at this round-table 
discussion on the importance of promoting freedom of expression and the 
free flow of information. From the U.S. government's perspective, these 
are integral to the development of rule of law, democracy, and 
promotion of civil society initiatives. From the perspective of the 
private telecom sector, the uncensored flow of free information is at 
the normative core of free market and exchange values.
    From our perspective, the free flows of information, uncensored 
debate and discussion, and freedom of assembly, are critical for 
promoting the accountability of government, exposing and addressing 
corruption, and promoting the emergence of a genuine democratic civil 
society in China. However, because political and legal controls 
constrain the independence of civil society within China, the nurturing 
of an uncensored virtual civil society through the use of Internet and 
wireless technology becomes an essential challenge.
                 human rights and the internet in china
    In the past 7 years, the astonishing development of the Internet 
can be seen in the laying of the backbone of thousands of kilometers of 
fiber optics cables (longer than the Great Wall) , the exponential 
growth in bandwidth, and now more than 33 million Internet users. The 
number of people online in China has been rising rapidly in the past 3 
years, surging to rates of 152 percent growth.
    In terms of wireless technology, currently China has the largest 
wireless market in the world, nearly 200 million users. Estimates 
project wireless users in China will total between 350 million and 500 
million by 2005.
The digital divide
    Yet, these numbers also reflect a serious digital divide. The 
demographics of these users raise concerns about breathless accounts of 
the capacity for the Internet to allow China to leapfrog other 
countries. Internet users and their geographic distribution are not 
representative of China on the whole. The vast majority of Internet 
users are young ( 70 percent are between 18-35), male (92.8 percent in 
July, 1998, now 69.56 percent), and have college education. The 
Internet is mainly diffused over the three big cities, Beijing, 
Shanghai and Guangzhou. By the end of 2000, only 0.76 percent of the 
Internet users are in rural areas where more than 80 percent of China's 
population resides.
    This digital divide reflects and contributes to the widening 
economic and social gap between rural and urban areas, and underscores 
the failure of China's economic modernization policy to ensure equal 
access and treatment in political, economic, social, and cultural life 
to the vast majority, including rural inhabitants, ethnic minorities, 
and migrants. Together with rising social dislocations and growing 
violent unrest among the millions of unemployed workers, these growing 
inequalities threaten to undermine the security, stability and fairness 
of China's modernization and reform efforts.
    If the promise of the Internet reaches only the current 
demographics of urban, educated, male users, and the growing middle 
class elite, then the Internet will not be a real tool for democracy or 
building civil society in China. Inherent in visions of democracy and 
freedom are broad-based, non-discriminatory access and opportunities 
for participation. Whether in cyberspace or otherwise, freedom of 
expression, an independent press, and freedom of assembly are 
meaningless if they can only be exercised by those connected, rich, 
educated or powerful enough to claim these rights.
General human rights situation
    It is also important to note that during this period of impressive 
technological advances, the overall human rights situation in China 
remained (and remains) serious and urgent. Ongoing human rights abuses 
include the systematic and continued use of torture, the arbitrary 
administrative detention system (with more than 200,000 detained in 
about 300 Reform through Labor camps, more than 1.7 million detained in 
Custody and Repatriation camps), and the ongoing impunity for the 
violent June 4, 1989 crackdown on unarmed civilians.
    The post-September 11 global and domestic focus on anti-terrorism 
has also allowed China, in the name of security, to continue its 
violent crack down on peaceful Muslim and Tibetan advocates for self-
determination, political dissidents, labor and democracy activists, and 
on vulnerable groups, such as rural and migrant populations. At the end 
of 2001, China imprisoned more journalists than any other country in 
the world, and stepped up domestic surveillance and censorship.
The reality of surveillance and control
    And specifically relevant to our discussion today, China has 
adopted a range of low and high tech strategies, including 
implementation of extensive regulations to censor and control Internet 
content and access, a network of informers, and the construction of an 
extensive and sophisticated surveillance system, with the assistance of 
foreign telecommunications corporations, such as the Canadian Nortel. 
These strategies have also resulted in self-censorship on the part of 
commercial Internet service providers and others.
    Despite mounting government sophistication at proactive propaganda 
strategies to use the Internet to promote State interests, the Internet 
is also a vehicle for human rights activism by mainland and exile 
groups including Human Rights in China, the China Democracy Party, the 
Falun Gong, and the Tibetan exile community. However, individuals 
within China that seek to deploy Internet strategies (including through 
E-mail and wireless cellular technology), for logistical and mass 
organizing purposes, or simply a university study group chat room, are 
met with arrests and detention. There are at least 20 or more 
individuals who have been detained in 2001 for alleged ``illegal'' on-
line activities, that include printing out pro-democracy materials, 
distributing information on Falun Gong, publishing articles critical of 
arrests of Internet activists, promoting political and democratic 
reforms, calling for a reassessment of June 4 crack-down, and posting 
information about local human rights violations.\1\
---------------------------------------------------------------------------
    \1\ For a list of individuals detained, site shut-downs, and 
Chinese Net restrictions, see http://dfn.org/focus/china/
chinanetreport.htm
---------------------------------------------------------------------------
    Increasingly restrictive Internet regulations make it clear that 
freedom of expression, freedom of assembly, and right to petition the 
government guaranteed in the Chinese Constitution are not real freedoms 
at all when the regime views their exercise as a challenge to its 
monopoly on political power.
    The legal, technological, and policy responses of the PRC 
government to control and counter the potential political impact of the 
Internet also raise important questions regarding the conventional 
wisdom often reflected in the media, government, and business 
communities that the Internet will act as an inevitable force for 
democracy and free expression. Within China, the Internet and 
information technology more broadly, is a powerful arena where the free 
flow of information and freedom of expression is competing with 
government surveillance, censorship, and control. When Jiang Zemin and 
current leaders call for the informatization of the economy, the 
military, and the government bureaucracy, it is clear this does not 
include any perceived challenges to the monopoly of political power and 
information held by the Party.
                      hric's internet initiatives
    As an example from the NGO trenches of what a recent RAND report 
describes as use of the Internet as a ``force multiplier,'' I will 
briefly describe HRIC's Internet-related initiatives. Our work features 
a proactive role for mobilizing technology for human rights activism 
from the base of our interactive website, www.hrichina.org. At the end 
of last year, HRIC re-launched an expanded data-base driven, bilingual 
website that provides easy-to-search function, direct links to HRIC-
sponsored projects such as the www.fillthesquare.org, on-line issues of 
HRIC's journal China Rights Forum, daily human rights news updates, and 
archive of HRIC's reports prepared for U.N. bodies and international 
conferences. HRIC also cultivated relationships with Chinese Democracy 
advocates exploring Internet strategies, and designed sophisticated 
data base platforms for initiatives such as a comprehensive data base 
on political prisoners in China.
    Historically, the Chinese government has controlled and manipulated 
public access to information on democratic movements in China. Although 
13 years have passed since June 4, the importance of the 1989 democracy 
movement and the violent government crackdown has not faded with time; 
it remains a key issue in the political culture of China. This is 
evident in the impact the publication of The Tiananmen Papers had on 
both the government regime and the Chinese people earlier this year. 
Yet the Chinese government has continued to insist on the legitimacy 
and necessity of the government's decisions to call in armed PLA 
soldiers and tanks of June 4th on unarmed citizens, and it has 
suppressed independent investigation and documentation of the event. 
One of the key preconditions for future political transformation in 
China is the thorough investigation and rehabilitation of the June 4th 
Massacre and the ending of impunity for those responsible.
    HRIC is working with a former student leader of the 1989 Tiananmen 
Movement and now a professional Internet data base developer, to 
construct a comprehensive, interactive, and authoritative website 
focused on establishing reliable accounts and facts of the June 4th 
Massacre and the subsequent persecutions of the Tiananmen Movement 
participants. The website www.64memo.com will include the diverse 
perspectives of students, concerned citizens, and the government, and 
archival materials such as dazibao (Big Character Posters), pamphlets, 
meeting records and decisions, photos, audio and videotapes, government 
announcements and internal documents (wenjian), reports and interviews 
on newspapers, and TV and radio coverage.
    The website will use advanced Internet data base technology to 
build a platform that has functions such as whole text reading, full-
text search, catalogue display, catalogue search, linkage among related 
texts, annotation by the participants to the texts, multimedia display 
of audio-visual materials, and back-end administration. This platform 
has the potential to be further developed as an interactive archival 
website for other human rights issues. A reference archive will also be 
established to maintain historical materials in conjunction with the 
website. Together, the website and archive will make historical 
materials about this pivotal event in contemporary China available to 
human rights activists, researchers, educators, journalists, and the 
evolving pro-democracy movement in China.
    As an on-line archival web project, www.64memo.com is designed to 
serve as a catalyst in establishing a forum for free communication and 
reliable information for democratic dissidents and activists who are 
now spread across the globe. Finally, it will provide a model for other 
democratic struggles on how to use new technologies more effectively to 
enhance cohesion, communication, and access to independent and reliable 
historical information in support of their movements.
                            looking forward
    We recommend the following areas for ongoing attention by the 
Commission:

    1. Identifying and monitoring possible opportunities for 
intervention and engagement by the U.S. Government, the private sector, 
and NGO's For example:

--In October 2002, Shanghai will host the ICANN conference. The 
        complexities and internal debates aside, how can concerns about 
        Chinese Internet censorship, free flow of information, and 
        freedom of association and assembly, be constructively and 
        appropriately raised?
--In the lead-up to the 2008 Olympics, we urge the Commission to 
        monitor several human rights concerns, including violations of 
        labor rights during the construction of the sites, the 
        ``cleaning-up'' of areas of the Beijing through detention of 
        ``undesirables,'' tighter control of the media to maintain a 
        positive domestic picture, shut-downs of media and websites, 
        and the continued use of security and anti-terrorism measures 
        to silence legitimate peaceful expression.

    With respect to information and surveillance technology, the 
testing and implementation of security systems during site 
construction, including digital surveillance cameras, and biometric 
authentication systems, should be carefully monitored to avoid leaving 
behind the architecture for technological repression and control when 
the games are finished.

    2. We also urge the Commission to pay particular attention to the 
increasingly restrictive Internet regulation and surveillance by 
Chinese authorities, especially as these regulations interface with 
China's WTO accession obligations, including the Telecommunications 
protocols. China's domestic regulatory, surveillance and censorship 
system must be measured against China's international obligations--both 
its economic and its human rights obligations. China's legal system 
must be transparent, accountable, predictable, and fair.
    3. We also respectfully note that the round-table themes are 
interrelated and it may be useful for the Commission to consider at 
some future point, hearings or round-tables that examine the direct 
interface and tensions between them, for example, the implementation of 
the WTO and human rights, or in the context of the digital divide, 
Ethnic Minorities and the Internet.
    Thank you.
                                 ______
                                 

                Prepared Statement of James C. Mulvenon

                             april 15, 2002
    From Saudi Arabia, to Cuba, to Myanmar, to the People's Republic of 
China, the focus of this report, dissidents are using the Internet to 
organize and communicate with each other, to access banned information, 
and to draw support from a global network of activists and non-
governmental organizations. At the same time, the governments of these 
countries are struggling to prevent these activists from using the 
Internet to erode government controls over the flow of information and 
promote political or social agendas that these regimes find 
threatening. This gives rise to a series of questions about the 
political impact of the Internet in authoritarian societies: Does the 
Internet provide dissidents with potent new tools that they can use to 
promote their causes, break through the barriers of censorship, and 
perhaps ultimately undermine the power and authority of non-democratic 
regimes? Or on the contrary, is it more likely that those authoritarian 
governments will use the Internet as another instrument to repress 
dissent, silence their critics, and strengthen their own power?
    This report addresses the use of the Internet by Chinese 
dissidents, Falun Gong practitioners, Tibetan activists, and other 
groups and individuals in the PRC and abroad who are regarded as 
subversive by the authorities in China. It also examines the counter-
strategies that Beijing has employed in its attempts to prevent or 
minimize the political impact of Chinese dissident use of the Internet.
    The arrival of the Internet has altered the dynamic between the 
Beijing regime and the dissident community. For the state, the 
political use of the Internet further degrades the Chinese Communist 
Party's ability to control the flow of information it deems politically 
sensitive or subversive into China and within China. The Party, 
however, can still use Leninist methods to crush potential organized 
opposition, and as a result no organization with the capacity to 
challenge the CCP's monopoly on political power presently exists in 
China.
    For dissidents, students, and members of groups like Falun Gong, 
the Internet, especially two-way communication like e-mail and BBS, 
permits the global dissemination of information for communication, 
coordination, and organization with greater ease and rapidity than ever 
before. Moreover, it allows them to do so in some instances without 
attracting the attention of the authorities, as exemplified by the 
unexpected appearance of an estimated 10,000-15,000 members of Falun 
Gong outside Zhongnanhai, the Chinese central leadership compound, in 
April 1999.
    For the dissident community, even the use of one-way Internet 
communication, particularly e-mail ``spamming,'' enables them to 
transmit uncensored information to an unprecedented number of people 
within China, and to provide recipients with plausible deniability in 
that they can always claim that did not request the information. In 
part because of dissident countermeasures (such as the use of different 
originating e-mail addresses each time), the PRC is unable to stop 
these attempts to ``break the information blockade.'' There is a trend 
toward more groups and individuals becoming involved in activities of 
this type, which some have dubbed a form of ``Internet guerrilla 
warfare.''
    Small groups of activists, and even individuals, can use the 
Internet as a force multiplier to exercise influence disproportionate 
to their limited manpower and financial resources. At the same time, 
however, enhanced communication does not always further the dissident 
cause. In some cases it serves as a potent new forum for discord and 
rivalry between various dissident factions.
    In terms of counter-strategies, the PRC regime has made limited use 
of high-tech solutions, including blocking of web sites and e-mail, 
monitoring, filtering, denial, deception, disinformation, and even 
hacking dissident and Falun Gong web sites. Some non-governmental 
groups have also launched ``vigilante hacks'' against dissident web 
sites, which illustrates the difficulty of determining the level of 
official government sponsorship for such attacks. Beijing's approach, 
however, is predominantly ``low-tech Leninist,'' employing traditional 
measures such as surveillance, informants, searches, confiscation of 
computer equipment, regulations, and physical shutdown of parts of the 
information infrastructure.
    The regime understands implicitly that the center of gravity is not 
necessarily the information itself, but the organization of information 
and the use of information for political action. The strategy of the 
security apparatus is to create a climate that promotes self-censorship 
and self-deterrence. This is exemplified by the comments of a Public 
Security Bureau official: ``People are used to being wary, and the 
general sense that you are under surveillance acts as a disincentive. 
The key to controlling the Net in China is in managing people, and this 
is a process that begins the moment you purchase a modem.''
    The government's strategy is also aided by the current economic 
environment in China, which encourages the commercialization of the 
Internet, not the politicization of the Internet. As one Internet 
executive put it, for Chinese and foreign companies, ``the point is to 
make profits, not political statements.''
    Beijing's countermeasures have been relatively successful on the 
whole to date. The current lack of credible challenges to the regime 
despite the introduction of massive amounts of modern 
telecommunications infrastructure, however, does not lead inexorably to 
the conclusion that the regime will continue to be immune from the 
forces unleashed by the increasingly unfettered flow of information 
across its borders. Indeed, while the regime has done a remarkable job 
thus far of finding effective counter-strategies to what it perceives 
as the potential negative effects of the information revolution, the 
scale of China's information technology modernization would suggest 
that eventually time will be on the side of the regime's opponents.
                                 ______
                                 

                  Prepared Statement of Kathryn Hauser

                             april 15, 2002
    Good afternoon. I am Kathryn Hauser, Senior Vice President of the 
Information Technology Industry Council (ITI). Thank you for inviting 
me to speak to you today on behalf of the 30 member companies of my 
association. ITI's members are the leading providers of information 
technology products and services and span the entire industry: IT 
infrastructure, computer hardware, software, IT services, consumer 
electronics, e-commerce and Internet services. Our companies operate 
globally and are heavily invested in ensuring open international trade, 
as over 60 percent of their total revenues come from foreign sales.
    China is obviously a key market for ITI members. Many ITI companies 
have long-standing investments and operations there; others are 
relatively new to this market. But all agree that China represents the 
most significant growth market for IT products and services, and ITI is 
actively working to improve our companies' access to this market. We 
are hopeful that China's membership in the World Trade Organization 
will advance domestic economic reforms and expand China's openness to 
the rest of the world.
    The focus of this Roundtable discussion, ``Wired China: Whose Hand 
is on the Switch?'' is timely. We have all observed the rapid expansion 
of Internet access in China, as well as the steady increase in Chinese 
domains and web sites. The China Internet Network Information Center 
estimates that there are 33.7 million Chinese Internet users, and many 
are predicting that China will soon overtake Japan as the Asian country 
with the most Internet users. Already China is the world's largest 
market for cell phones, with nearly 160 million users. As technology 
evolves to allow inexpensive Internet access from cell phones, China is 
likely to have more Internet users than any other country.
    All of us are questioning what this means for China, for its 
people, governments, businesses and customers, and for our companies 
doing business there. As with any issue in China, the role of the 
government is paramount. Through telecommunications policies beginning 
in the 1990's, the Chinese Government shaped the growth and diffusion 
of the Internet and continues to support its expansion today. At the 
same time, the Chinese Government is attempting to control use of the 
Internet by filtering or blocking access to certain websites with 
objectionable content. We in industry believe in the power of 
information technology to generate higher productivity and economic 
growth, to increase the flow of information, and to better the lives of 
those who can access it.
   i. chinese government support for the development of the internet
    Internet expansion in China is due to direct support by the Chinese 
Government, which continues to promote the use of information 
technology and the Internet to serve its economic development goals. 
Nearly a decade ago, in the early 1990's, the Chinese Government began 
a process of ``informatization'' to ``drive industrial development.'' 
It initiated the so-called ``Golden Projects'' which established a new 
Internet protocol (IP) communications network linking government 
ministries and state-owned enterprises. The goal was to use information 
technology as a vehicle to modernize the economy, centralize 
decisionmaking, create a more transparent administrative process 
between and among government ministries, and establish e-government 
capabilities. The Chinese Government also deployed broadband 
technologies, particularly in high-density urban areas, and put a plan 
in place to rapidly build out the country's telecommunications 
infrastructure. These actions paved the way for State Council support 
for the development of the Internet in China.
    In 1996, the State Council set up a Steering Committee on National 
Information Infrastructure to coordinate Internet policy, taking it out 
of the hands of the Ministry of Posts and Telecommunications and the 
Ministry of Electronic Industries. Further restructuring occurred in 
1998, with the consolidation of functions into the Ministry of 
Information Industries. High-tech and telecom issues became the 
responsibility of Vice Premier Wu Bangguo and MII Minister Wu Jichuan, 
with Premier Zhu Rongji occasionally taking a role.
    Last August, the State Informatization Leading Group was formed to 
provide top-level coordination of intra-agency issues related to the IT 
and telecom sector. Under this leading Group, the State Council 
Informatization Office launched a major initiative to broaden 
decisionmaking and communication links through e-government.
    Chinese Government officials are eager to learn about the U.S. 
experience with e-government. We have forged a link between the State 
Council Informatization Office and USITO, the U.S. Information 
Technology Organization, which is comprised of six U.S. IT associations 
and serves as our voice in China. Vice Minister Liu He of the State 
Council Informatization Office was in Washington last month and 
discussed e-government and e-commerce issues with ITI member companies. 
We will continue this dialog through USITO in Beijing.
    The United States should welcome China's e-government initiative. 
It has the potential to significantly increase transparency of China's 
governance for its own people. Some of our members believe it will also 
be the major driver of the growth of the use of the Internet in China, 
as government information, decisions and services remain important if 
not paramount in China. Finally, U.S. companies, including ITI's 
membership, are best positioned globally to benefit from this growth.
    As China moves forward with its informatization strategy, including 
establishing rules and regulations, U.S. industry believes it has much 
to contribute to the formulation of these rules in terms of global and 
national practice. We hope and expect that, consistent with China's WTO 
obligations, we will have timely and effective opportunities to comment 
upon the development of regulations affecting our businesses in China 
and look forward to working with Chinese officials toward this end. 
This includes regulations ranging from the structure of foreign 
enterprises offering Internet services, to encryption to wireless 
standards, and much more.
            ii. restrictive measures concerning the internet
    As the Internet continues to expand in China, the government 
continues its efforts to attempt to tighten controls on on-line 
expression. What kinds of content is the Chinese Government trying to 
limit? Much of their attention seems focused on the same issues that 
have troubled regulators in other countries: exploitative, sexually 
inappropriate, or criminal uses of the web. Beyond that, Chinese 
officials want to limit politically offensive or regime threatening 
subjects.
    Since 1995, when China first began permitting commercial Internet 
accounts, the authorities have issued at least 60 sets of regulations 
aimed at controlling Internet content. The regulations are often vague 
and broadly worded, but nonetheless form an elaborate regulatory 
framework that serves as a statement of policy, justification for 
monitoring and surveillance, a set of guidelines for what constitutes 
``illegal'' activity, and a deterrent to internet users.
    Pressed for details, regulators have a hard time--or simply 
refuse--to describe with precision what sorts of subjects fall into 
this category. The very vagueness of Chinese regulations concerning 
political or religious issues has a chilling effect on all dialog 
relating to these topics.
    There is an irony in these restrictions, since the broader media in 
China--TV, radio and an evolving print sector--are experimenting with 
anti-corruption and consumer-oriented stories on a host of topics.
    A recent survey of Internet Use in China conducted by the Center 
for Social Development of the Chinese Academy of Social Sciences 
suggests that the government's actions may not be sufficient to stop 
the flow of information. The survey revealed that 10 percent of the 
users ``frequently'' use proxy servers and 25 percent of users 
``occasionally'' use proxy servers to get around websites blocked by 
the Chinese Government. The survey concluded that the main reason non-
users are not on-line is cost (computer, access to Internet, etc.)--not 
fear of government control. Both users and non-users said they have a 
positive attitude toward the Internet and believe it will make the 
world a better place. (See CASS Internet Survey 2000, directed by Prof. 
Guo Liang and Prof. Bu Wei, available through 
(www.worldinternetproject.org.)
                      iii. role for u.s. industry
    A key objective will be to develop a process whereby companies that 
will be affected by proposed new regulations will be permitted to 
comment on them before they are implemented. In addition, we hope to 
share information about how other governments are dealing with some of 
these problems, encourage Chinese participation in e-commerce fora 
around the world, and support government-to-government exchanges on 
these issues. We anticipate that this discourse will enable both 
industry and government to work together to address the regulatory 
structure and other key issues, such as privacy and security.
                               conclusion
    Whether one considers the Internet primarily a method of mass 
communication or a product of the telecommunications network, the fact 
remains that the Chinese leadership continues to see the development 
and promotion of the Internet as a vehicle for cultural, educational 
and economic development in China. This does not mean that the 
government will not try to control objectionable content, just as many 
other countries are doing. But it is clear that China is making more 
information available to more and more people. The U.S. IT industry 
needs to be part of this effort.
    Thank you.

                       Submissions for the Record

                              ----------                              


Prepared Statement of Bobson Wong, Executive Director, Digital Freedom 
                                Network

                             april 15, 2002
    Since January 2000, when the Chinese newspaper People's Daily 
published new Internet regulations from the State Secrecy Bureau, the 
Chinese government has cracked down on Internet use that it considers 
dangerous, arresting several individuals, shutting down sites, and 
passing new laws that codify existing practice. The Digital Freedom 
Network (DFN), a U.S.-based organization that promotes and develops the 
use of Internet technology for human rights activism, has been 
monitoring the use of the Internet in China. Below is a list of at 
least 25 individuals in China currently detained for online activity 
(this list is online at http://dfn.org/focus/china/netattack.htm). DFN 
also has a page containing the latest news related to Net restrictions 
in China at http://dfn.org/focus/china/chinanetreport.htm.
    Many of the individuals listed below were detained for months or 
even years before facing formal charges, usually subversion. Those who 
get a trial are always found guilty and receive multi-year sentences. 
The detainees include Falun Gong believers who forwarded material about 
the movement and others who e-mailed pro-democracy publications to 
others or published articles online that criticized government 
officials. Some are not even dissidents. Huang Qi was detained 2 years 
ago after several overseas dissidents posted material on a missing-
persons Web site he used to run about the June 4, 1989 pro-democracy 
demonstrations. He remains in custody. Wang Jinbo reportedly went on a 
hunger strike in January 2002 because prison guards would not allow his 
family to see him.
    It is imperative that the United States and other nations act 
quickly to do everything it can to ensure their release. But even if 
these 25 individuals were to be freed, there is no guarantee that 
others won't be arrested and convicted on similar charges. China uses a 
combination of tough legislation and modern technology to restrict 
online information. Any online activity that the government considers 
threatening is banned, including using the Internet to incite the 
overthrow of State power, topple the socialist system, destroy national 
unity, promote ``cults'' (interpreted to mean groups such as the Falun 
Gong spiritual movement), or support the independence of Taiwan.
    To ensure that individuals such as Huang Qi are not imprisoned in 
China, we should continue to promote technological tools that enable 
Chinese users to express themselves freely in a reasonable manner. 
Supporting efforts such as the anonymous proxy service SafeWeb will 
certainly help. But we must also find a way to reach out to China's 
young people. Internet users in China today are young, urban, well-
educated--a reflection of how economic reforms since the Tiananmen 
Square crackdown have improved the living standards of many Chinese. 
But as beneficiaries of official policy, they have little reason to 
distrust the government and are incredibly suspicious of the United 
States. In the days after the September 11 terrorist attacks, Chinese 
bulletin boards were flooded with messages from Chinese users 
criticizing U.S. arrogance and claiming that the U.S. got what it 
deserved for ``meddling'' in the affairs of other nations. These users 
will grow up to become the future leaders of the world's most populous 
nation. Reaching out to this generation will require more than 
encryption software and other technical solutions. It will require that 
we buildup a relationship of mutual trust with China so that its next 
generation of leaders will allow its citizens to live in a more open 
society.
                                 ______
                                 

    Chinese Individuals Currently Detained for Online Political or 
                           Religious Activity

          compiled by the digital freedom network (april 2002)
                http://dfn.org/focus/china/netattack.htm
    1. Chi Shouzhu, a veteran Chinese activist, was detained on April 
18, 2001 shortly after printing online pro-democracy material from a 
Web site using a friend's computer, according to the Hong Kong-based 
Information Center for Human Rights and Democracy. The center said he 
was carrying the material when he was detained at a train station in 
the northeastern city of Changchun. Chi was released in June after 
serving a 10-year prison term for taking part in 1989 pro-democracy 
protests. Leng Wanbao, a dissident living in the northeastern province 
of Jilin, was interrogated for more than 2 hours by police on April 18, 
2001, according to the Paris-based Reporters sans frontieres (Reporters 
without Borders). Police accused him of publishing ``subversive 
articles'' on the Internet. Some of Leng's writings were allegedly 
found on Chi Shouzhu, who was arrested a short time before. (See also 
``China Cracks Down on Cyber-Dissent,'' Associated Press, April 19, 
2001; Reporters sans frontieres protest letter, April 20, 2001, http://
www.rsf.fr/uk/html/asie/cplp01/lp01/190401.html)
    2. Dong Yanhong, a staff member at Tsinghua University, was 
sentenced on December 13, 2001 to 5 years in prison for spreading 
information on the banned Falun Gong spiritual movement over the 
Internet, according to the Hong Kong-based Information Center for Human 
Rights and Democracy. In addition to Dong, five others were sentenced 
by the Beijing No. 1 Intermediate People's Court on December 13: Liu 
Wenyu, a professor of electric power at Tsinghua University; Liu's wife 
Yao Yue, a microelectronics researcher at Tsinghua University; Wang 
Xin, an academic at Tsinghua University; Tsinghua electronics professor 
Meng Jun; and Wang Xuefei, graduate student at a Shanghai university. 
(``6 Convicted in China Falun Gong Case,'' Associated Press, December 
24, 2001, ``China Jails Six for Falun Gong Web Activity--Group,'' 
Reuters, December 23, 2001.)
    3. Guo Qinghai, a friend of dissident Qi Yanchen and also a 
freelance writer, was arrested in September 2000 for ``subverting State 
power.'' Guo published articles on the Internet that discussed Qi's 
case and frequently put on overseas online bulletin boards essays 
promoting political reforms in China. On April 24, 2001, the 
Information Center for Human Rights and Democracy reported that a court 
in Cangzhou, in the northern province of Hebei, tried Guo on April 3 
for subversion. According to the center, the court did not inform Guo's 
family of the hearing, the group said. On April 26, 2001, he was 
sentenced to 4 years in prison. (See also ``China Charges, Tries 
Internet Dissidents: Group,'' Reuters, April 25, 2001.)
    4. Hu Dalin was detained on May 18, 2001 by police in the 
southeastern city of Shaoyang after he published articles online that 
were written by his father, retired Beijing strategy scholar Lu 
Jiaping, according to the U.S.-based Chinese dissident e-mail 
publication V.I.P. Reference. No formal charges have been filed against 
Hu, but police told family members that he was arrested because of 
``subversive'' activities online, according to the publication. Lu 
remains free in Beijing. (See also ``Denial and Detentions,'' Digital 
Freedom Network, May 24, 2001.)
    5. Huang Qi, 36, an Internet entrepreneur from Chengdu who ran a 
site containing information about the 1989 Tiananmen Square massacre, 
was detained on June 3, 2000 on the eve of the massacre's eleventh 
anniversary. One of the items on Huang's Web site (http://6-
4tianwang.com), which was originally a Web site about missing persons, 
was a letter from the mother of a young student killed during the 
demonstrations. The letter accused police of beating her son to death. 
On July 14, 2000, Huang's wife Zeng Li was officially notified that her 
husband was being charged with ``subversion. `` Huang's trial began on 
February 13, 2001. It was suspended after Huang Qi collapsed in court 
on the afternoon of the trial's first day. On June 25, 2001, a relative 
of Huang's was notified that his trial was rescheduled for June 27. On 
June 26, the Chengdu Intermediate Court announced that the trial was 
again postponed indefinitely. On August 14, Huang was tried secretly. 
No family members were allowed to attend. (See also ``Trial of Chinese 
Website Creator to Reopen This Week,'' Agence France-Presse, June 26, 
2001; ``CHINA: Jailed Internet publisher tried in secret,'' Committee 
to Protect Journalists, August 16, 2001.)
    6. Jiang Shihua, a high school computer teacher in Nanchong, was 
arrested on August 16, 2000 after publishing articles online that 
criticized the Chinese government. Using the pen name Shumin, which 
means ``common citizen,'' Jiang started writing and posting articles on 
August 11, 2000 from the Silicon Valley Internet Cafe, which he owns. 
Jiang was immediately charged with ``subverting the State power. `` 
According to the Information Center for Human Rights and Democracy, a 
court in Nanchong sentenced Jiang to 2 years in jail in December 2000. 
On May 18, 2001, the Higher People's Court in the southwestern province 
of Sichuan upheld his conviction. (See also ``Web dissident sentenced 
to 2 years imprisonment,'' Reporters sans frontieres Action Alert, 
March 14, 2001, ``Chinese Court Turns Down Internet Dissident's Appeal: 
Rights Center,'' Agence France-Presse, May 23, 2001.)
    7. Jin Haike, a geological engineer, was one of four intellectuals 
detained in Beijing on March 13, 2001 and charged with subversion on 
April 20, 2001. Jin, along with Consumer Daily reporter Xu Wei, 
software developer Yang Zili, and freelance writer Zhang Honghai--had 
co-founded the ``New Youth Study Group,'' a discussion group that 
discussed Chinese political reform, particularly in rural areas. The 
center said that university students participated in the study group's 
events and that members posted material on a Web site and sent e-mails 
to each other. A fifth intellectual, Zhang Yanhua, was also detained 
with the four but was later released. Jin, Xu, Yang, and Zhang were 
tried on September 28, 2001. (See also ``China Said to Charge Four of 
Subversion,'' Associated Press, May 21, 2001; ``China Charges Four with 
Subversion: Rights Group,'' Reuters, May 21, 2001; ``Four Chinese 
intellectuals tried for subversion,'' Digital Freedom Network, 
September 28, 2001.)
    8. Li Hongmin was arrested around June 10, 2001 and sent to a 
detention center in his hometown of Shaoyang (Hunan Province). Sources 
for the U.S.-based dissident publication VIP Reference and the Hong 
Kong-based Information Center of Human Rights and Democracy said that 
he was arrested after e-mailing copies of the Chinese version of The 
Tiananmen Papers to friends. The Tiananmen Papers are a collection of 
documents allegedly smuggled out of China that reveal the decisions of 
China's top leaders before, during, and after the bloody June 4, 1989 
crackdown on pro-democracy demonstrations. (See also ``Chinese Held for 
Distributing 'Tiananmen Papers' on the Internet, Agence France-Presse, 
July 2, 2001; E-mail with Richard Long, June 27, 2001.)
    9. Liu Wenyu, a professor of electric power at Tsinghua University, 
was sentenced on December 13, 2001 to 3 years in prison for spreading 
information on the banned Falun Gong spiritual movement over the 
Internet, according to the Hong Kong-based Information Center for Human 
Rights and Democracy. In addition to Liu, five others were sentenced by 
the Beijing No. 1 Intermediate People's Court on December 13: Liu's 
wife Yao Yue, a microelectronics researcher at Tsinghua University; 
Tsinghua staff member Dong Yanhong; Wang Xin, an academic at Tsinghua 
University; Tsinghua electronics professor Meng Jun; and Wang Xuefei, 
graduate student at a Shanghai university. (``6 Convicted in China 
Falun Gong Case,'' Associated Press, December 24, 2001, ``China Jails 
Six for Falun Gong Web Activity--Group,'' Reuters, December 23, 2001.)
    10. Liu Weifang was sentenced in northwestern China for posting 
articles on Internet chatrooms that criticized the Communist Party, the 
Xinjiang Daily reported on June 15, 2001. The paper said that the small 
business owner was convicted of inciting subversion against State 
power. Liu had posted several articles in 1999 and 2000 that criticized 
both the Party and China's top leaders. Although he used the Internet 
name ``Lgwf,'' Chinese officials determined that he posted the 
articles. (See also ``Chinese Man Sentenced to Three Years in Prison 
for Cyber Writings,'' Agence France-Presse, June 18, 2001.)
    11. Lu Xinhua was detained on March 11, 2001 in Wuhan, capital of 
central China's Hubei province, according to the Information Center for 
Human Rights and Democracy. On April 20, 2001, he was formally charged 
with inciting to subvert State power. The group said that Lu was the 
most active dissident on the Internet in Wuhan. He often posted on 
overseas Web sites essays promoting democracy in China and reports on 
human rights violations in Wuhan. On January 14, 2002, the Wuhan 
Municipal Intermediate People's Court convicted him and sentenced him 
to 4 years in prison. Lu was convicted for an article of his in which 
he attacked Chinese President Jiang Zemin. The article said that only a 
system of ``mutual supervision'' and a more stable system of laws would 
reduce corruption in China, according to Agence France-Presse. (See 
also ``China Charges, Tries Internet Dissidents: Group,'' Reuters, 
April 25, 2001; ``Two More Chinese Fall Afoul of Internet Laws: 
Report,'' Agence France-Presse, April 25, 2001; ``Two Chinese political 
dissidents jailed for airing views on Internet,'' Agence France-Presse, 
January 14, 2002.)
    12. Meng Jun, an electronics professor at Tsinghua University, was 
sentenced on December 13, 2001 to 10 years in prison for spreading 
information on the banned Falun Gong spiritual movement over the 
Internet, according to the Hong Kong-based Information Center for Human 
Rights and Democracy. In addition to Meng, five others were sentenced 
by the Beijing No. 1 Intermediate People's Court on December 13: Yao 
Yue, a microelectronics researcher at Tsinghua University; Yao's 
husband Liu Wenyu, a professor of electric power at Tsinghua 
University; Wang Xin, an academic at Tsinghua University; Tsinghua 
staff member Dong Yanhong; and Wang Xin, graduate student at a Shanghai 
university. (``6 Convicted in China Falun Gong Case,'' Associated 
Press, December 24, 2001, ``China Jails Six for Falun Gong Web 
Activity--Group,'' Reuters, December 23, 2001.)
    13. Qi Yanchen, sentenced to 4 years in prison on September 19, 
2000, is the first Chinese convicted of subversion for material he 
wrote that was published on the Internet. The charges stem from 
articles that Qi wrote for the November 1998 and January 1999 issues of 
Open magazine in Hong Kong and published under the pen name Ji Li. Qi 
was also officially charged for writing articles in the May 6, 1999 and 
May 17, 1999 articles of the U.S.-based Chinese dissident e-mail 
publication Dacankao (V.I.P. Reference). Qi was arrested on September 
2, 1999 in the northeastern Chinese city of Botou. According to V.I.P. 
Reference, who spoke to Qi's wife Mi Hongwu, Qi Yanchen's right to 
appeal his conviction expired on September 29, 2000. Although Mi wanted 
to appeal the conviction, Qi's lawyer decided not to help him due to 
pressure from the National Security Bureau at Cangzhou.
    14. Wang Jinbo, 29, was arrested on May 12, 2001 for ``defaming'' 
police on the Internet, according to the Information Center on Human 
Rights and Democracy. He was arrested in Junan town in eastern China's 
Shandong province. When Wang's father asked for more information about 
the charges against his son, police threatened to arrest him as well. 
On December 13, 2001, the Intermediate People's Court in Linyi, 
Shandong, found Wang guilty of subversion for publishing foreign news 
articles on the Internet and posting an online message that urged the 
government to re-evaluate the 1989 crackdown on pro-democracy 
demonstrations at Tiananmen Square. He began a hunger strike on January 
9, 2002 because prison guards did not allow his family to see him. (See 
also ``Chinese dissident arrested for defaming police online,'' Agence 
France-Presse, May 12, 2001, ``Outlawed party member jailed,'' Reuters, 
December 14, 2001, ``Rights activist sentenced to 4 years in jail,'' 
Deutsche Presse-Agentur, December 14, 2001; ``CHINA: China jails 
dissident for subversion--HK group,'' Reuters, January 14, 2002.)
    15. Wang Sen, a member of the banned China Democracy Party, was 
arrested on April 30, 2001 for seeking to usurp power according to the 
Information Center on Human Rights and Democracy. Wang had posted an 
allegation that the southwestern Chinese city of Dachuan's medical 
center had sold tuberculosis medicine, which was donated by the Red 
Cross, at inflated prices. He was arrested in Dachuan, located in 
Sichuan province. (See also ``Chinese dissident arrested for defaming 
police online,'' Agence France-Presse, May 12, 2001.)
    16. Wang Xin, an academic at Tsinghua University, was sentenced on 
December 13, 2001 to 9 years in prison for spreading information on the 
banned Falun Gong spiritual movement over the Internet, according to 
the Hong Kong-based Information Center for Human Rights and Democracy. 
In addition to Wang, five others were sentenced by the Beijing No. 1 
Intermediate People's Court on December 13: Yao Yue, a microelectronics 
researcher at Tsinghua University; Yao's husband Liu Wenyu, a professor 
of electric power at Tsinghua University; Tsinghua staff member Dong 
Yanhong; Tsinghua electronics professor Meng Jun; and Wang Xuefei, 
graduate student at a Shanghai university. (``6 Convicted in China 
Falun Gong Case,'' Associated Press, December 24, 2001, ``China Jails 
Six for Falun Gong Web Activity--Group,'' Reuters, December 23, 2001.)
    17. Wang Xuefei, graduate student at a Shanghai university, was 
sentenced on December 13, 2001 to 11 years in prison for spreading 
information on the banned Falun Gong spiritual movement over the 
Internet, according to the Hong Kong-based Information Center for Human 
Rights and Democracy. In addition to Wang, five others were sentenced 
by the Beijing No. 1 Intermediate People's Court on December 13: Yao 
Yue, a microelectronics researcher at Tsinghua University; Yao's 
husband Liu Wenyu, a professor of electric power at Tsinghua 
University; Wang Xin, an academic at Tsinghua University; Tsinghua 
staff member Dong Yanhong; and Tsinghua electronics professor Meng Jun. 
(``6 Convicted in China Falun Gong Case,'' Associated Press, December 
24, 2001, ``China Jails Six for Falun Gong Web Activity--Group,'' 
Reuters, December 23, 2001.)
    18. Wang Zhenyong, a 30-year-old former assistant professor in 
psychology at Southwestern Normal University, was arrested in China for 
e-mailing four articles about the Falun Gong spiritual group to a 
colleague, according to the Chongqing Daily seen by Agence France-
Presse on June 2, 2001. He downloaded the articles from an overseas Web 
site in December 2000 and forwarded the articles to a colleague, who 
then distributed the articles over the Internet. (See also ``Academic 
Arrested in China for Spreading Falun Gong Views Via Internet,'' Agence 
France-Presse, June 2, 2001.)
    19. Xu Wei, reporter for Consumer Daily, was one of four 
intellectuals detained in Beijing on March 13, 2001 and later accused 
of unspecified charges. Jin had co-founded the ``New Youth Study 
Group,'' a discussion group that discussed Chinese political reform, 
particularly in rural areas. Members posted material on a Web site and 
sent e-mails to each other. Xu was tried on September 28, 2001. (See 
also ``China Said to Charge Four of Subversion,'' Associated Press, May 
21, 2001; ``China Charges Four with Subversion: Rights Group,'' 
Reuters, May 21, 2001; ``Four Chinese intellectuals tried for 
subversion,'' Digital Freedom Network, September 28, 2001.)
    20. Yang Zili, a software developer known for his outspoken 
criticism of communism and a grass-roots activist at Beijing 
University, and his wife Lu Kun were detained by security agents on 
March 13, 2001. Lu was released 2 days later, but Yang remains in 
custody. Yang had co-founded the ``New Youth Study Group,'' a 
discussion group that discussed Chinese political reform, particularly 
in rural areas. Members posted material on a Web site and sent e-mails 
to each other. Yang ran the Web sites http://thought.home.sohu.com, 
http://yangzi.00books.com, and ``Yang Zi's Garden of Ideas'' (http://
lib.126.com). Yang received a master's degree in geophysics in 1998 at 
Beijing University. Yang was tried on September 28, 2001. (See also 
``Dissident Web Writer Arrested in Beijing,'' Free China Movement press 
release, March 24, 2001; ``Some Supplementary Information About Yang 
Zili,'' Lu Kun; ``China Said to Charge Four of Subversion,'' Associated 
Press, May 21, 2001; ``China Charges Four with Subversion: Rights 
Group,'' Reuters, May 21, 2001; ``Four Chinese intellectuals tried for 
subversion,'' Digital Freedom Network, September 28, 2001.)
    21. Yao Yue, a microelectronics researcher at Tsinghua University, 
was sentenced on December 13, 2001 to 12 years in prison for spreading 
information on the banned Falun Gong spiritual movement over the 
Internet, according to the Hong Kong-based Information Center for Human 
Rights and Democracy. In addition to Yao, five others were sentenced by 
the Beijing No. 1 Intermediate People's Court on December 13: Yao's 
husband Liu Wenyu, a professor of electric power at Tsinghua 
University; Tsinghua staff member Dong Yanhong; Tsinghua electronics 
professor Meng Jun; Tsinghua academic Wang Xin; and Wang Xuefei, 
graduate student at a Shanghai university. (``6 Convicted in China 
Falun Gong Case,'' Associated Press, December 24, 2001, ``China Jails 
Six for Falun Gong Web Activity--Group,'' Reuters, December 23, 2001.)
    22. Zhang Haitao, 30, creator of the only China-based Web site on 
the outlawed Falun Gong, was charged with subversion on October 11, 
2000 in Changchun, Jilin Province. Zhang, a computer engineer in the Xu 
Ri Computer Company, is accused of establishing a site promoting Falun 
Gong in May and of posting an online petition urging followers to 
protest the government ban on the group. Authorities shut down his site 
on July 24, 2000; Zhang was detained on July 29. (``News Update,'' 
China Rights Forum (Winter 2000/1), http://www.hrichina.org/crf/
english/00winter/00W16--NewsUpdate.html)
    23. Zhang Honghai, a freelance writer, was one of four 
intellectuals detained in Beijing on March 13, 2001 and later accused 
of unspecified charges. Zhang had co-founded the ``New Youth Study 
Group,'' a discussion group that discussed Chinese political reform, 
particularly in rural areas. Members posted material on a Web site and 
sent e-mails to each other. Zhang was tried on September 28, 2001. (See 
also ``China Said to Charge Four of Subversion,'' Associated Press, May 
21, 2001; ``China Charges Four with Subversion: Rights Group,'' 
Reuters, May 21, 2001; ``Four Chinese intellectuals tried for 
subversion,'' Digital Freedom Network, September 28, 2001.)
    24. Zhang Ji, a college student in Heilongjiang Province, was 
charged on November 8, 2000 with ``disseminating reactionary documents 
via the Internet. `` Authorities say Zhang had e-mailed information to 
U.S.- and Canada-based Web sites of the Falun Gong religious group. 
They say he also downloaded news about the group and shared it with 
others in China. (``News Update,'' China Rights Forum (Winter 2000/1), 
http://www.hrichina.org/crf/english/00winter/00W16--NewsUpdate.html)
    25. Zhu Ruixiang, a lawyer and former producer of the Shaoyang 
Radio Station, was charged with subversion and sentenced to 3 years in 
prison on September 14, 2001 after he forwarded e-mail messages to 12 
people inside China. The messages, deemed ``reactionary'' by a court in 
Shaoyang in the southern province of Hunan, contained copies of V.I.P. 
Reference (Dacankao), a daily e-mail publication based in the U.S. 
consisting of articles and essays related to democracy in China. Zhu 
was arrested on May 8, 2001, and Public Security Bureau officials 
confiscated his computer, according to the U.S.-based Free China 
Movement. (See also ``China hands 3-year jail term for relaying e-
mail,'' Agence France-Presse, September 15, 2001; ``Official verdict of 
judgment of Zhu Ruixiang,'' Digital Freedom Network, September 25, 
2001.)
                                 ______
                                 

 Prepared Statement of David Cowhig, Formerly With the U.S. Embassy in 
                                Beijing

                             april 15, 2002
                wired china: many hands on many switches
    I would like to share with you some thoughts about China and the 
Internet based on my 5 years covering the Internet for the Environment, 
Science and Technology Section of the U.S. Embassy in Beijing. These 
are my own observations and musings about how Internet fits into the 
Chinese social and political system. My views expressed here do not 
reflect the views of the U.S. Government and are not a policy 
prescription of any kind.
    When asking the question ``Whose Hand is on the Switch?'' about the 
Internet in China we need to bear in mind that there are many hands and 
many switches. Chinese provincial and local governments and indeed 
various parts of the central government have far greater coordination 
problems than we experience among the Federal, State and local 
governments in the United States. China might be thought of as a 
decentralized de facto Federal State that lacks Federal institutions 
that facilitate central control and coordination such as the Federal 
court system and regional offices of central government ministries. 
China is best understood not so much as a Big Brother State but as a 
loose collection of thousands of provincial and local Party and 
government little brothers. Many of the provincial little brothers have 
only nominal allegiance to Big Brother in Beijing. Local officials want 
to control media not just for Beijing's purposes but also to prevent 
Beijing to know about their own shortcomings. Many orders and 
regulations from the central government are ignored from the outset or 
forgotten after only a few months.
    One corollary of the China's shortcomings in the rule of law area 
is that local governments are not conscientious in obeying orders from 
Beijing. The result has been that the central government implements 
policies by national campaigns that are intense for a short time but 
then swiftly fade away. New regulations are issued not as amendments to 
old ones but as de novo regulations--apparently a tacit admission that 
the old ones have faded from memory. Government by political campaign 
as a Chinese government style is gradually fading as more laws are 
written down, as China's leaders keep insisting that ``officials really 
should be carrying out their duties according to the law'' and as the 
public learns more about the text of laws and about legal procedures. 
Improved public knowledge of the law is in some small part one of the 
benefits of the Internet for China. Although the movement away from 
government by campaign can be seen in that campaigns are much less 
disruptive than they were in the past, being aware of the ``government 
by campaign'' phenomenon can help us better understand China and the 
Internet.
    What does this mean for the Internet? New tough rules are issued 
each year but are not systematically enforced. Where enforced, 
enforcement fades after a few months. Last Spring visiting two dozen 
``net cafes'' in Hunan, I was never asked to produce any ID before 
using the computer nor was anyone else. Often regulations requiring 
identification of users were posted prominently on the wall. Although 
web bar management is supposed to check that clients are not surfing 
subversive websites, in practice no one pays attention to which sites 
net cafe clients are visiting. One could say that the rules were 
observed only in the sense that one could observe them posted 
prominently on the wall. Most of the clientele were in their twenties 
who paid about 3 RMB per hour (25 US cents) to use a computer for 
online chat, games watching movies (pirate copies of movies were on the 
cafe LAN) and browsing websites. The Changsha, Hunan police estimated 
in Spring 2001 that there were 1000 web cafes in the city. Web cafes in 
China have a very fuzzy definition that can include not only web cafes 
but also computer gaming parlors frequented by truant high school 
students and underground locales that show pornographic films on their 
computer local area networks. The Changsha police in their spring 2001 
crackdown told local newspapers that they were focusing on the 
pornographic web bars.
    Chinese internet sites are supposed to conform to the same general 
guidelines as the media. See the October 2000 State Council Internet 
Information Management Regulations.

    <bullet> Threatening national security, leaking State secrets, 
overthrowing the government, and harming national unity;
    <bullet> Harming the reputation or interests of the state;
    <bullet> Fanning ethnic hatred, discrimination on the basis of 
nationality, and harming the unity of China's nationalities;
    <bullet> Harming the State religious policy, propagandizing for 
evil religions or feudal superstition;
    <bullet> Spreading false rumors, pornography, gambling, violence, 
murder, intimidation;
    <bullet> Insulting or slandering someone, infringing on the legal 
rights of others;
    <bullet> Other actions that are contrary to law or administrative 
regulations.

    These regulations, like most Chinese regulations, are so broad that 
they can be interpreted many different ways. Websites are expected not 
to originate news--which web managers in turn interpret as meaning 
don't originate news that is politically sensitive. Many Chinese 
websites carry news gathered from the 100-plus Chinese newspapers that 
are online. Thus the news on the web, especially breaking news, is not 
much better than found in the print press. Some websites, such as 
Sina.com (http://www.sina.com.cn) allow readers to leave their own 
comments about a news story. Sometimes these comments are much more 
interesting than the news stories themselves. If a newspaper somewhere 
in China does print a relatively daring story, the story will often be 
picked up by websites throughout the country.
    Bad news about corrupt local government in a province often appears 
in a local paper in another province since the authorities in the other 
province just don't care so much about suppressing bad news from other 
provinces. This information can then leak into the first province over 
the net. Indeed, local officials suppress information not just to 
prevent their own people from knowing about a problem but also to 
prevent higher authorities at the provincial or national level to know 
that the glowing reports they send upwards are not entirely correct.
    One dramatic illustration of the power of the Internet in China 
came after local officials in Jiangxi Province tried to suppress news 
of an explosion in an elementary school fireworks factory that killed 
several dozen schoolchildren. Efforts by local officials to falsely 
claim that a mad bomber and not illegal fireworks assembly was involved 
was frustrated by a combination of Chinese journalists and the flow of 
information around China on the Internet.
    Often local officials succeed in keeping information from reaching 
Beijing. At other times Beijing knows but pretends not to know for to 
reveal that it knows but can do nothing would amount to a confession of 
impotence. One example of how news of a local disaster spreads on the 
Internet despite efforts by the local government to suppress is the 
report ``Revealing the `Blood Wound' of the Spread of HIV/AIDS in Henan 
Province'' spread around China on websites and e-mail about the HIV/
AIDS disaster in Henan Province. A translation of the report is 
available at http://www.usembassy-china.org.cn/sandt/henan-hiv.htm
    Sometimes after a big event in China or abroad, more information 
and commentary does leak into China over the Internet from dissident e-
mail publications such as VIP Reference (http://www.bignews.org/) as 
well as the Huaxia Digest (from http://www.cnd.org), the VOA's Chinese 
language e-mail news service. The sending e-mail servers of the first 
two e-mail publications are blocked and so the originating server often 
changed. VOA Chinese e-mail news is blocked and unblocked depending 
mostly upon the ups and downs of U.S.--China relations but also upon 
whether a politically sensitive domestic news event has occurred.
    News from some foreign Chinese newspapers, including, interestingly 
enough, some critical reports from the Singapore Morning News (Zaobao) 
regularly figure prominently on Chinese news websites. The value added 
one sees on the web site includes reports from provincial newspapers in 
faraway Chinese cities that one ordinarily wouldn't see (out of town 
newspapers are not so easy to get hold of unless you subscribe) and the 
ability to do searches and compare reports over time and from many 
different sources. Just as with newspapers and magazines, for websites 
commercial pressures tend to increase the diversity and freedom of 
information since more attractive media is also of course more viable 
in a highly competitive environment.
    A great variety of Chinese language books and periodicals are 
available online. The cost of getting online continues to fall, 
especially in Internet cafes where the use of a local area network 
brings connections costs down even lower than they are at home. Online 
bookstores have appeared in China, although severe problems in the 
areas of credit (few Chinese have credit cards); distribution and 
resolution of consumer complaints still severely constrain the 
development of online services in China. Many books, including some 
banned publications, are also available at minimal cost on CD-ROM as 
well as online. Although web content regulations apply to online forums 
as much as anything else on the net, the sheer volume of messages and 
it seems oftentimes the reluctance of monitors to cut short interesting 
conversations.
    Although the 15 million users of the Chinese Internet are very few 
compared to China's 1.3 billion population, the Internet is 
increasingly arriving in every small town. Together with the rapid 
expansion of the inter-provincial highway network, the accelerated pace 
of countryside to city labor migration, the Internet is part of some of 
the most significant phenomena of the last decade--the shrinking of the 
distance between urban and rural China and urban China's penetration of 
rural life.
    The Chinese Government's ``Government Online'' project (http://
www.gov.cn) has put thousands of Chinese government offices online. 
Many Chinese laws and regulations are now available online for citizens 
to consult and act on--already an important progress from the days just 
a few years ago when ``confidential regulations'' made it very 
difficult for citizens to dispute officials on points of law.
    Chinese language translations of free market philosophers such as 
Frederich Hayek are available online on many web sites such as Issues 
and Ideology (http://www.wtyzy.com). Just as discussions in deep or 
lengthy Chinese academic books can be surprisingly open (perhaps the 
censors give up after the first 20 pages?), so too are direct 
contradictions of China's official political and economic ideology 
common on the more academic websites. Some of these articles criticize 
by analogy. An example is an article reprinted from the January 2002 
issue of ``Yellow River'', Li Xianzhi's meditation on the last 10 years 
of Lu Xun's life considers Lu's critique of one party dictatorship. 
This article is on the Issues and Ideology website at http://
www.wtyzy.net/linxianzhilxunzhou.htm. The analysis fits the Communist 
people's democratic dictatorship perfectly but Lu Xun was talking about 
Chiang Kai-shek's Nationalist Party. Of course. For example, These 
websites regularly come under pressure,some have closed, but many very 
interesting ones are still out there. Forum monitors are required to 
delete ``subversive'' messages on China's many open discussion fora, 
including the sometimes very lively ``Strong Country Forum'' (http://
bbs.people.com.cn/ ) run by the tongue of the Communist Party of 
China--the People's Daily.
    The State of the web in China reflects the uncertain State of China 
itself. Most Chinese, including most Communist Party members, want a 
more democratic and more open society. China's communist leaders fear 
that the development and modernization brings will help bring will 
shake their hold on power and lead to social instability. A Chinese 
provincial vice Governor said a few years ago, ``We are the guardians 
of a dead religion but must hold on for the sake of social stability.'' 
China's Internet itself, much more an emblem of modernity and progress 
than in the United States, will likely trace a wavering path 
alternating between greater opening as China moves toward greater 
modernization and progress and tightening at times when the Chinese 
leadership fears that new ideas and news that might tend to weaken the 
Party's control.
    U.S. Embassy Beijing reports on the Internet in China are available 
at http://www.usembassy-china.org.cn/sandt/sandtbak-
hp.html#Internet%20and%20Computers
    Several translations and summaries of press clippings from Chinese 
news reports about the Internet are available at http://www.usembassy-
china.org.cn/sandt/sandsrc.htm
    A list of some of China's more interesting online bookstores and 
discussion websites can be found at ``Beijing Bookworm'' at http://
www.usembassy-china.org.cn/english/sandt/bjbkwrm.html
    David Cowhig returned to the United States in July 2001 after 9 
years in Okinawa, Taipei and Beijing. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9f98948c93929cbb99929c9d94948fd5989496">[email&#160;protected]</a>
[GRAPHIC] [TIFF OMITTED] TDTB4.001

[GRAPHIC] [TIFF OMITTED] TDTB4.002

[GRAPHIC] [TIFF OMITTED] TDTB4.003

[GRAPHIC] [TIFF OMITTED] TDTB4.004

[GRAPHIC] [TIFF OMITTED] TDTB4.005

[GRAPHIC] [TIFF OMITTED] TDTB4.006

[GRAPHIC] [TIFF OMITTED] TDTB4.007

[GRAPHIC] [TIFF OMITTED] TDTB4.008

[GRAPHIC] [TIFF OMITTED] TDTB4.009

[GRAPHIC] [TIFF OMITTED] TDTB4.010

[GRAPHIC] [TIFF OMITTED] TDTB4.011

[GRAPHIC] [TIFF OMITTED] TDTB4.012

[GRAPHIC] [TIFF OMITTED] TDTB4.013

[GRAPHIC] [TIFF OMITTED] TDTB4.014

[GRAPHIC] [TIFF OMITTED] TDTB4.015

[GRAPHIC] [TIFF OMITTED] TDTB4.016

[GRAPHIC] [TIFF OMITTED] TDTB4.017

[GRAPHIC] [TIFF OMITTED] TDTB4.018

[GRAPHIC] [TIFF OMITTED] TDTB4.019

[GRAPHIC] [TIFF OMITTED] TDTB4.020

[GRAPHIC] [TIFF OMITTED] TDTB4.021

[GRAPHIC] [TIFF OMITTED] TDTB4.022

[GRAPHIC] [TIFF OMITTED] TDTB4.023

[GRAPHIC] [TIFF OMITTED] TDTB4.024

[GRAPHIC] [TIFF OMITTED] TDTB4.025

[GRAPHIC] [TIFF OMITTED] TDTB4.026

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
